<html>
<title> - A NATIONAL FRAMEWORK FOR THE REVIEW AND LABELING OF BIOTECHNOLOGY IN FOOD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 A NATIONAL FRAMEWORK FOR THE REVIEW AND LABELING OF BIOTECHNOLOGY IN 
                                  FOOD

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2015

                               __________

                           Serial No. 114-58




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-704                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)












  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     2
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................     4
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8

                               Witnesses

Rick Blasgen, President and Chief Executive Officer, Council of 
  Supply Chain Management Professionals..........................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................   125
Todd W. Daloz, Assistant Attorney General, Office of the Vermont 
  Attorney General...............................................    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................   129
John Reifsteck, Chairman of the Board and President, Growmark, 
  Inc............................................................    47
    Prepared statement...........................................    49
    Answers to submitted questions...............................   135
Gregory Jaffe, Biotechnology Project Director, Center for Science 
  in the Public Interest.........................................    60
    Prepared statement...........................................    62
    Answers to submitted questions...............................   139
L. Val Giddings, Senior Fellow, Information Technology & 
  Innovation Foundation..........................................    69
    Prepared statement...........................................    71
    Answers to submitted questions \1\...........................   141

                           Submitted Material

Statement of support from Members of the Agriculture Committee, 
  submitted by Mr. Pompeo........................................   110
Statement of support from the Coalition for Safe and Affordable 
  Food, submitted by Mr. Butterfield.............................   115
Statement of support from the biotechnology industry, submitted 
  by Mr. Butterfield.............................................   121
Statement of support from the National Association of 
  Manufacturers, submitted by Mr. Pitts..........................   123

----------
\1\ Mr. Giddings did not respond to submitted questions for the 
  record by the time of printing.
 
 A NATIONAL FRAMEWORK FOR THE REVIEW AND LABELING OF BIOTECHNOLOGY IN 
                                  FOOD

                              ----------                              


                        THURSDAY, JUNE 18, 2015

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Present: Representatives Pitts, Guthrie, Whitfield, 
Shimkus, Murphy, Burgess, Blackburn, Lance, Griffith, 
Bilirakis, Ellmers, Bucshon, Brooks, Collins, Upton (ex 
officio), Green, Capps, Schakowsky, Butterfield, Castor, 
Sarbanes, Schrader, Kennedy, and Pallone (ex officio).
    Also Present: Representatives Pompeo and Welch.
    Staff Present: Clay Alspach, Chief Counsel, Health, Sean 
Bonyun, Communications Director; Leighton Brown, Press 
Assistant; Karen Christian, General Counsel; Noelle Clemente, 
Press Secretary; Carly McWilliams, Professional Staff Member, 
Health; Tim Pataki, Professional Staff Member; Graham Pittman, 
Legislative Clerk; Chris Sarley, Policy Coordinator, 
Environment & Economy; John Stone, Counsel, Health; Dylan 
Vorbach, Staff Assistant; Greg Watson, Staff Assistant; 
Christine Brennan, Minority Press Secretary; Jeff Carroll, 
Minority Staff Director; Eric Flamm, Minority FDA Detailee; 
Tiffany Guarascio, Minority Deputy Staff Director and Chief 
Health Advisor; Samantha Satchell, Minority Policy Analyst; and 
Kimberlee Trzeciak, Minority Health Policy Advisor.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Good morning. I ask that all of our guests today 
please take their seats. The subcommittee will come to order. 
The chair will recognize himself for an opening statement.
    Genetically modified organisms, or GMOs, is a term that 
refers to ingredients sourced from crops that have been 
genetically engineered to express certain traits or 
characteristics.
    There are real sensitivities around these issues and all 
issues regarding the food we eat and feed our children and 
grandchildren. It is our job, as policymakers, particularly as 
it relates to the public health, to establish a factually and 
scientifically sound foundation prior to taking any action that 
would impact consumers and our economy.
    This hearing provides a great opportunity to put rhetoric 
aside and do just that. Genetic engineering in agriculture has 
occurred for centuries. Ingredients from genetically engineered 
plants have been a part of the U.S. Food supply for decades.
    In fact, as much as 90 percent of our corn, sugar beet, and 
soybean crops are now genetically engineered and more than 70 
percent of processed foods contain ingredients derived from 
such crops.
    The Food and Drug Administration oversees the safety of all 
food products from plant sources, including those from 
genetically engineered crops. These products must meet the same 
safety requirements as foods from traditionally-bred crops. The 
FDA currently has a consultation in place which developers of 
the underlying technologies address any outstanding safety or 
other regulatory issues with the agency prior to marketing 
their products.
    FDA has completed approximately 100 of such consultations. 
No products have gone to market until FDA's safety-related 
questions have been resolved. FDA officials have repeatedly 
stated that the agency has no basis for concluding that 
bioengineered foods are different from other foods in any 
meaningful way, and the World Health Organization has confirmed 
that ``No effects on human health have been shown as a result 
of consumption of such foods.'' In fact, they can grow faster, 
resist diseases and drought, cost less, and prove more 
nutritious. Nonetheless, there have recently been a number of 
State initiatives calling for the mandatory labeling of food 
products that contain GMOs.
    We will hear today from a number of witnesses who can speak 
to such actions and the impact they would have. I am concerned 
that a patchwork of State labeling schemes would be impractical 
and unworkable. Such a system would create confusion among 
consumers and result in higher prices and fewer options.
    Finally, I want to commend Representative Mike Pompeo and 
Representative Butterfield for their leadership on these issues 
and look forward to learning more about their continued efforts 
to work in a bipartisan manner on H.R. 1599, the Safe and 
Accurate Food Labeling Act of 2015. All these efforts will 
continue as the legislative process moves forward. I am 
encouraged that the revised language circulated in advance of 
this hearing has been informed by conversations between the 
sponsors, the committees of jurisdiction, the implementing 
agencies, and the impact of stakeholders.
    I would like to welcome all of our witnesses for being here 
today. I look forward to your testimony. And I yield the 
balance of my time to distinguished vice chairman of the full 
committee, Representative Blackburn of Tennessee.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    The Subcommittee will come to order.
    The Chairman will recognize himself for an opening 
statement.
    Genetically modified organisms, or GMOs, is a term that 
refers to ingredients sourced from crops that have been 
genetically engineered to express certain traits or 
characteristics.
    There are real sensitivities around these issues, and all 
issues regarding the food we eat and feed our children and 
grandchildren. It is our job as policymakers, particularly as 
it relates to the public health, to establish a factually and 
scientifically sound foundation prior to taking any action that 
would impact consumers and our economy. This hearing provides a 
great opportunity to put rhetoric aside and do just that.
    Genetic engineering in agriculture has occurred for 
centuries. Ingredients from genetically engineered plants have 
been a part of the U.S. food supply for decades. In fact, as 
much as 90 percent of our corn, sugar beet, and soybean crops 
are now genetically engineered and more than 70 percent of 
processed foods contain ingredients derived from such crops.
    The Food and Drug Administration oversees the safety of all 
food products from plant sources, including those from 
genetically engineered crops. These products must meet the same 
safety requirements as foods from traditionally bred crops. The 
FDA currently has a consultation process in place in which 
developers of the underlying technologies address any 
outstanding safety or other regulatory issues with the agency 
prior to marketing their products. FDA has completed 
approximately 100 of such consultations. No products have gone 
to market until FDA's safety-related questions have been 
resolved.
    FDA officials have repeatedly stated that the agency has no 
basis for concluding that bioengineered foods are different 
from other foods in any meaningful way, and the World Health 
Organization has confirmed that ``no effects on human health 
have been shown as a result of consumption of such foods.'' In 
fact, they can grow faster, resist diseases and drought, cost 
less, and prove more nutritious.
    Nonetheless, there have recently been a number of state 
initiatives calling for the mandatory labeling of food products 
that contain GMOs. We will hear today from a number of 
witnesses who can speak to such actions and the impact they 
would have.
    I'm concerned that a patchwork of state labeling schemes 
would be impractical and unworkable. Such a system would create 
confusion among consumers and result in higher prices and fewer 
options.
    Finally, I want to commend Rep. Mike Pompeo (R-KS) and Rep. 
G.K. Butterfield (D-NC) for their leadership on these issues, 
and I look forward to learning more about their continued 
efforts to work in a bipartisan manner on H.R. 1599, the Safe 
and Accurate Food Labeling Act of 2015. While these efforts 
will continue as the legislative process moves forward, I am 
encouraged that the revised language circulated in advance of 
this hearing has been informed by conversations between the 
sponsors, the committees of jurisdiction, the implementing 
agencies, and impacted stakeholders.
    I would like to welcome all of our witnesses for being here 
today. I look forward to your testimony. I yield to ----------
------------------.

    Mrs. Blackburn. Thank you, Mr. Chairman.
    Welcome to all. And the chairman mentioned the food that we 
eat and that we feed our children and grandchildren. I want to 
add one category to that, what we feed our pets. And we are 
concerned about that aspect also.
    I do appreciate Mr. Pompeo and the assistance they have 
given us as we look at pet food labeling. And the chairman also 
mentioned that we have had these products in the marketplace 
for decades. I would say we are talking about over 100 years. 
Go back and look at what farmers did. And they would breed 
cattle to get the best traits. Look at the work that George 
Washington Carver did in his 40 years of teaching and research 
at Tuskegee, looking for ways to improve the soil, looking at 
different varietals of peanut and sweet potatoes and improving 
the health of individuals in the south.
    Genetically modified foods are components that are indeed 
with us, and it is because of them that we have greater yields 
per acre; we have more varieties, and that our farmers markets 
that I visit every single weekend are full of beautiful 
products that encourage people to access these fresh foods and 
bring them into their homes and kitchens.
    With that, I thank all for their work. I yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    Now I recognize the ranking member of the subcommittee, Mr. 
Green for 5 minutes.
    Mr. Green. Mr. Chairman, I was glad our vice chair of the 
subcommittee worried about our pets. My problem is I had a dog 
one time that ate pillows and curtains and everything else. I 
think he ate everything he could get his mouth on.
    Mr. Chairman, I have a statement I would like to put into 
the record, but I would like to yield my time to Congressman 
Butterfield.
    Mr. Pitts. Without objection, so ordered.
    [The prepared statement of Mr. Green follows:]

                 Prepared statement of Hon. Gene Green

    Good morning and thank you all for being here today.
    Genetically Modified Organisms, or GMO's, first hit the 
market around 20 years ago and in the years since, have only 
expanded in prevalence. Nowadays, most corn, sugar beets, 
canola and cotton crops grown in the U.S. are genetically 
modified.
    Today, as we debate whether there is a need for a national 
framework for the labeling of GMO ingredients, I feel it is 
important to first talk about the safety and science of 
genetically modified organisms.
    The FDA has conducted evaluation after evaluation on GMOs 
through their voluntary consultation process, and consistently 
found no material difference between the GMO and their non-
modified counterparts. Moreover, there have not been any cases 
where FDA found that a genetically modified organism was unsafe 
for consumption.
    Genetically Modified food is not only safe for consumption, 
but has a positive environmental impact. A comprehensive study 
by the National Academy of Sciences found that GMO's have 
significantly increased crop yields while decreasing pesticide 
use and soil erosion.
    The benefits of GMOs are not limited to environmental 
stewardship. Norman Borlaug, the father of the ``Green 
Revolution'' and recipient of the Noble Peace Prize is credited 
with saving a billion lives through his creation of Dwarf 
Wheat, a genetically modified plant that doubled the crop yield 
in Pakistan and India, dramatically improving food security in 
those countries.
    Even today, Golden Rice, a crop containing biosynthesized 
beta-carotene is essential in combatting Vitamin A deficiency 
in Asia. This GMO crop is credited with saving the lives of 
670,000 children under the age of 5 every year. At this point, 
it has clearly been demonstrated that GMO technology is not 
only safe, but of immense benefit to society.
    Most analysts estimate that 80% of packed foods in the u.s. 
contain genetically modified ingredients or plants. When it 
comes to mandatory labeling, food labels should impart useful, 
scientifically-sound information to consumers. With that said, 
consumers who want to know the origin and process of their food 
should have access to that information through a voluntary and 
certified GMO-Free label that they can be confident in. I feel 
that H.R. 1599, the Safe and Accurate Food Labeling Act moves 
us towards that goal.
    At the same time, any proposed legislation that preempts 
existing State Law must be considered with careful scrutiny. 
Congress must have a compelling reason to create a national 
standard. I look forward to hearing from our witnesses today on 
the proposed legislation, science of genetically modified food, 
and perspectives on the current state-by-state patchwork.
    Thank you Mr. Chairman and I yield back.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Green and Mr. 
Pitts. Before beginning, Mr. Chairman, I just want to publicly 
extend my condolences to the families of the nine victims in 
Charleston, South Carolina who were horrifically murdered last 
night while attending a prayer meeting. So thank you, Mr. 
Chairman, for allowing me to digress for just a moment to offer 
my sympathies to those families.
    Mr. Chairman, I support H.R. 1599. I am the bill's lead 
democratic co-sponsor. This bill is bipartisan. It proposes a 
national labeling standard for foods produced with genetically 
modified ingredients. The alternative is a complex and 
unworkable patchwork of differing state laws that can only 
cause confusion and do little to provide greater transparency. 
Several states have moved forward with proposals that would 
require foods containing ingredients to be labeled. This is in 
response to unsubstantiated claims that foods containing 
genetically modified ingredients are, in some way, dangerous in 
human consumption. I take exception to these unfair and 
downright dishonest claims.
    Foods containing genetically modified ingredients are safe. 
The FDA, USDA, National Academy of Sciences, AAAS, the WHO, 
every major scientific and governmental organization agrees 
with that statement. Even opponents of genetically modified 
foods admit genetically modified foods have failed to produce 
any untoward health effects. But the demonization of 
genetically modified foods continues despite objective science 
proving to the contrary.
    Those opposed to genetically modified foods simply reject 
science, and that is tremendously disappointing. And though I 
stand with science and my belief that these foods are safe, I 
understand the concerns expressed by the opponents and want to 
be responsive. That is why I have worked with my friend, Mr. 
Pompeo, and others in advocating for a Federal framework for 
labeling and crop commercialization that puts the FDA and USDA, 
our Nation's foremost food safety authorities, putting them in 
the driver's seat. 1599 is a balanced approach that reduces 
confusion by providing consumers with labeling uniformity 
across state lines that addresses the concerns of those who are 
opposed to genetically modified foods while not neglecting the 
fact that our Nation's farmers and manufacturers grow and 
produce foods that are so far and wide and not just within a 
state's borders. Without a Federal standard, Mr. Chairman, 
those farmers and manufacturers will be forced to comply with 
uneven costly and potentially misleading and onerous state-by-
state mandates. Compliance will require new costly supply chain 
infrastructure that would disrupt the Nation's food supply, 
cause confusion and uncertainty. 1599 is reasonable. And most 
importantly, it is workable.
    I want to thank the more than 60 bipartisan co-sponsors for 
joining me and Mr. Pompeo in agreeing that our bill is the best 
way forward.
    I yield the remainder of my time to Mr. Welch of Vermont.
    Mr. Welch. I thank the gentleman. The issue here is not so 
much whether GMOs are safe. The issue is whether individual 
purchasers, consumers, who purchase food have a right to know 
that GMOs are part of the food they are buying. It is a 
consumer right-to-know issue. I agree with my colleagues that a 
national standard would be good, but there is no national 
standard in this bill. It is a voluntarily labeling, which 
means there will be no labeling whatsoever.
    Many states are reflecting the desires of their consumers 
to basically know what is in the product they are buying, and 
the consumer has the right to do that. They just do. And this 
legislation is ironic in this sense: If GMOs are so safe, and I 
am not here to challenge that assertion, but if they are so 
safe, why not label so that folks who are getting what the 
manufacturers assert is so safe know that their product will be 
labeled and consumers can then make their own decision. My 
question really is, if they are so safe, why would anyone be 
afraid of labeling those products so that consumers would have 
a right to know?
    Now, in Vermont we have our assistant attorney general 
here, Todd Daloz, who is going to talk about what we have done 
in Vermont. Three States have passed labeling laws. Several 
others are considering them. There have been referendums that 
almost passed in California and it is reflecting this 
groundswell of desire that consumers have to know what is in 
the products that they are buying.
    Now, I am going to play a little unfair here, Mr. Chairman, 
because I am here today to give Mr. Pompeo----
    Mr. Pompeo. Finally.
    Mr. Welch [continuing]. And Mr. Butterfield a GMO free 
labeled pint of the most nutritious product on planet earth, 
and that is Ben and Jerry's ice cream. And this is labeled, and 
it sells. People love this.
    I will yield back.
    Mr. Pitts. The gentleman's time has expired.
    The chair recognizes the chair of the full committee, Mr. 
Upton, 5 minutes for opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning. We continue our examination of the 
role biotechnology plays in our Nation's farms and in our food 
supply. Our food, as we know, is literally our lifeline. It is 
important for the public to be engaged. It is the job of this 
subcommittee to establish a record based on the facts and the 
science so we ultimately pass legislation that is in the best 
interest of our constituents and our economy.
    At the hearing that we held in December of last year and in 
other venues since then, the FDA has been clear that the 
premarket consultation process currently in place to review 
food produced from genetically engineered crops is rigorous and 
the agency has no basis for questioning its safety. The WHO and 
every other legitimate health and scientific body that has 
examined this evidence has echoed the FDA's findings. 
Nonetheless, there are a number of state-specific labeling 
requirements in various stages of consideration that are 
inconsistent, potentially confusing to consumers, would 
increase food costs that cast out over the safety of 
biotechnology.
    Mr. Pompeo and Butterfield have been working tirelessly on 
a bipartisan basis in putting together a clear, understandable 
national framework that maintains FDA'S current review process, 
codifies Federal labeling standards and related requirements, 
establishes a certification process that the Department of 
Agriculture, consistent with current organic program, for the 
labeling of products as being produced or developed without the 
use of genetic engineering.
    The draft amendment to H.R. 1599 circulated before this 
hearing is another step in the right direction, and I commend 
the Ag Committee for working with us to get the bill through 
the House to ensure consumers will have a clear, concise, and 
consistent system to assist in their food choices. I yield the 
balance of my time to Mr. Pompeo.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good Morning. Thank you Chairman Pitts for holding this 
important hearing to further examine the role biotechnology 
plays on our nation's farms and in our food supply. I 
understand that this is a sensitive issue and one that folks 
are passionate about. It is the job of this subcommittee to 
establish a record based on the facts and the science and, as 
we have done so many times this Congress, pass legislation that 
is in the best interests of our constituents and our economy.
    At the hearing we held on these issues in December and in 
other venues since, FDA has been very clear that the premarket 
consultation process they currently have in place to review 
food produced from genetically engineered crops is rigorous and 
the agency has no basis for questioning their safety. This 
position is shared by the World Health Organization and every 
other legitimate health and scientific body that has examined 
the evidence.
    Nonetheless, there are a number of state-specific labeling 
requirements in various stages of consideration that are 
inconsistent and would cast doubt over the safety of 
biotechnology, confuse consumers, and increase food costs. 
Fortunately, Congressmen Mike Pompeo (R-KS) and G. K. 
Butterfield (D-NC) have been working tirelessly on putting 
together a national framework that maintains FDA's current 
review process, codifies federal labeling standards and related 
requirements, and establishes a certification process at the 
Department of Agriculture-consistent with the current organic 
program-for the labeling of products as having been produced or 
developed without the use of genetic engineering.
    The draft amendment to H.R. 1599 circulated before this 
hearing is another step in the right direction and I commend 
the Agriculture Committee for working with us to get this bill 
to the House floor as soon as possible. With that, I yield the 
balance of my time to Mr. Pompeo.

    Mr. Pompeo. Thank you.
    Thank you, Mr. Chairman, for yielding.
    I want to thank Chairman Pitts and Ranking Member Green for 
holding this hearing. I appreciate it. I very much want to 
thank Mr. Butterfield, too. We have been working on this for 
quite some time, and I think we are making fantastic progress. 
I also thank Mr. Welch for the ice cream as well. I hope it was 
Chunky Monkey. I couldn't see exactly what it was.
    And I want to thank all the witnesses for being here today 
as well so that we can get the facts about both the technology 
and this legislation.
    The fact is scientific consensus on the safety of 
genetically engineered products is overwhelming. Precisely zero 
pieces of credible evidence have been presented to show that 
food produced with biotechnology poses any risk to health and 
safety of consumers.
    Before the idea that the government at any level should 
step in and mandate that they be labeled borders on the absurd. 
Expanding government at any level to enshrine preferences into 
a costly legal requirement is bad policy.
    What policymakers need to realize is that this bad policy 
has real effects on families we represent in our districts. 
Those who support mandatory genetically engineered product 
leveling must stand up and admit they are willing to increase 
the cost for foods for families in places like Wichita, and 
Houston, and Grand Rapids, and New York in order to satisfy the 
unscientific demands of anti-biotechnology activists. Our goal 
here must be to ensure that families in America have access to 
safe, nutritious, affordable food for their kids and families. 
Having hundreds of different governments, state and local, 
regulating food labeling, increases costs to families across 
America and for no benefit.
    We should also consider the effects of biotechnology on the 
ability to feed the world. Providing affordable food around the 
planet is something that Americans and Kansans are going to 
need to be an important part of, and allowing biotechnology to 
flourish will be an important part of getting this policy 
right.
    The potential amendment we are considering on H.R. 59 and 
the one that we are reviewing today is the result of much 
conversation between the Energy and Commerce Committee and Ag 
Committee, and I appreciate their work alongside us. Like the 
current language this amendment ensures that every new 
genetically engineered plant destined to enter our Nation's 
food supply goes through an FDA safety review.
    Additionally, this amendment improves our bill by aligning 
USDA and FDA responsibilities to ensure that a thorough and 
complete review of these products is done. I have a letter from 
over two dozen members of the Agriculture Committee, Mr. Pitts, 
that I would like to enter into the record dated June 18th.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pompeo. Thank you.
    The reality is that biotechnology, time and time again, has 
been proven safe. This is simply not a debatable point. Our 
policy ought to reflect that, and we shouldn't raise the price 
for consumers based on a desire of a particular set of 
activists.
    Thank you, again, Mr. Pitts, and I look forward to the 
hearing.
    Mr. Pitts. The chair thanks the gentleman.
    Now I recognize the ranking member of the full committee, 
Mr. Pallone, for 5 minutes for opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today we will hear a range of views on why there should or 
should not be mandatory labeling of foods from genetically 
engineered or GE plants, and on why States should and should 
not be allowed to impose such labeling requirements.
    I have been long been a proponent of strong food labeling 
requirements. I was an original co-sponsor of the Nutrition 
Labeling and Education Act of 1990. I was a strong advocate for 
the ACA provision requiring nutrition labeling on menus and 
sponsored legislation last year, which I will be reintroducing 
to update and strengthen current FDA nutrition labeling 
requirements. And I have strongly opposed any attempts to 
weaken existing labeling requirements, such as the Commonsense 
Nutrition Labeling bill, which I believe would impede consumer 
access to nutritional information on menus and restaurants, 
pizza parlors, grocery stores, and convenience stores.
    So I am inclined to be skeptical of legislation aimed at 
limiting, rather than enhancing, information on a food label. 
At the same time, I recognize that the differences between 
nutrition labeling and GE labeling may warrant different 
regulatory approaches. Nutrition labeling provides information 
and enables consumers to make health-related choices on how 
they eat. There is no question in my mind the Federal 
government should food companies to put that information on 
food labels.
    GE labeling is about the breeding techniques used to make 
agricultural crops. Food from such crops do not share any 
particular nutritional or health-related properties. A GE label 
provides no information on the consumption of the food or 
whether--on the composition of the food on whether it is good 
for bad for you, on whether it tastes good or bad, or on 
whether it is safe or unsafe. There is no scientific evidence 
that GE foods pose safety issues any different from non-GE 
foods.
    I have to admit, when I hear critics argue that GE foods 
are dangerous, I feel the same way I do when I hear people deny 
climate change, argue against vaccinating children, or say they 
aren't scientists when asked if they believe in evolution. So 
from a science or health perspective, there doesn't seem to be 
a compelling government interest in forcing a food company to 
label a food that is made with or without genetic engineering.
    That being said, if the State of Vermont wants to require 
food companies to put such information on their food labels, is 
there a compelling Federal Government interest in prohibiting 
them from doing so? Perhaps not. But I do think there is a 
compelling Federal interest in preventing any labeling that is 
false or misleading consistent with current law.
    If mandatory GE labeling were inherently misleading, for 
example, because it implied that GE food was somehow inferior 
to normal food, that would seem to be a compelling reason to 
prohibit it. I am so far not convinced that the requirement 
imposed by Vermont would be inherently misleading. I would be 
interested in hearing from our panelists today on that 
question.
    Now, there may be a compelling Federal interest from 
preventing companies from having to face 50 different food 
labeling regimes. In fact, it was a fear of such unworkable set 
of State food labeling requirements that led food companies and 
restaurants ultimately to support Federal requirements for 
nutrition labeling. To avoid a 50-state problem, there are two 
obvious solutions: We can band right-to-know labeling 
requirements outright, or we can replace them with a uniform 
Federal mandatory GE labeling requirement, but I personally 
think a voluntary labeling approach is more appropriate for GE 
labeling. I also don't believe in preempting State law without 
good reason.
    So I think this is an important hearing, Mr. Chairman. 
There are a number of competing issues to weigh before moving 
forward on legislation, and I hope we will take our time in 
considering them. I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    That concludes the opening statements of the members. As 
usual, all written opening statements of the members will be 
made a part of the record.
    We have one panel today. I will introduce them in order of 
their presentations. First, Mr. Rick Blasgen, president and 
chief executive officer of the Council of Supply Chain 
Management Professionals; secondly, Mr. Todd Daloz, assistant 
attorney general, Office of Vermont Attorney General; thirdly, 
Mr. John Reifsteck, chairman of the board and president of 
GROWMARK, Inc.; then Greg Jaffe, Biotechnology Project 
director, Center for Science in the Public Interest; and, 
finally, Mr. Val Giddings, senior fellow, Information 
Technology & Innovation Foundation.
    Thank you, all, for coming. Your written testimony will be 
made part of the record. You will each be recognized for 5 
minutes to summarize your testimony.
    You have a series of lights on the table; green, yellow 
will go on with one minute left, red, we will ask that you 
please wrap up. And if you want to take less than 5 minutes, 
that is OK. We are going to have to run a tight gavel this 
morning.
    So, Mr. Blasgen, you are recognized for 5 minutes for your 
summary.

   STATEMENTS OF RICK BLASGEN, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, COUNCIL OF SUPPLY CHAIN MANAGEMENT PROFESSIONALS; TODD 
  W. DALOZ, ASSISTANT ATTORNEY GENERAL, OFFICE OF THE VERMONT 
  ATTORNEY GENERAL; JOHN REIFSTECK, CHAIRMAN OF THE BOARD AND 
PRESIDENT, GROWMARK, INC.; GREGORY JAFFE, BIOTECHNOLOGY PROJECT 
DIRECTOR, CENTER FOR SCIENCE IN THE PUBLIC INTEREST; AND L. VAL 
 GIDDINGS, SENIOR FELLOW, INFORMATION TECHNOLOGY & INNOVATION 
                           FOUNDATION

                   STATEMENT OF RICK BLASGEN

    Mr. Blasgen. Thank you very much, and good morning, 
Chairman Pitts and Ranking Member Green, and members of the 
subcommittee. My name is Rick Blasgen. I am president and chief 
executive officer of the Council of Supply Chain Management 
Professionals representing well over 8,500 members globally. 
Prior to joining CSCMP I was senior vice president for 
Integrated Logistics and ConAgra Foods, and in similar 
positions at Kraft Foods as well as Nabisco. I have been 
president and CEO of CSCMP since 2005. In this capacity, I 
serve as the primary issue expert relating to logistics and 
supply chain management.
    I want to thank you very much for inviting me to explain 
the importance of national labeling frameworks. I will focus my 
remarks on the costs associated with Vermont's labeling 
mandate, a law that goes into effect on July 1, 2016, and 
imposes incalculable burdens on our Nation's largest 
manufacturing sector.
    Grocery manufacturing is a high-volume, low-margin 
business, and any increase in cost, even by a matter of cents, 
can substantially affect a manufacturer and its supply chain. 
The primary cost centers in the supply chain are the cost of 
source materials, capital, operations, labor, storage, 
distribution centers, transportation, maintenance, and, of 
course, fuel. The supply chain for a processed food begins with 
the raw commodity. The supplier sells the raw food to a 
manufacturer, and the manufacturer stores the food at the plant 
until it is processed into its ingredient form. That ingredient 
may be the final product, such as in cooking oils, or it may be 
used in products containing multiple ingredients.
    Finished goods are sent to a manufacturer's distribution 
center where they are stored until ready for transport into the 
customer's distribution center. The customer may be a national 
or regional chain or a regional distributor that sells to other 
retail outlets. The customer stores the finished goods at its 
center and distributes them to its retail outlets where they 
are sold finally to consumers. A manufacturer typically plans 
each stage of the supply chain to ensure it is handled as 
efficiently as possible. The core unit in a grocery 
manufacturer supply chain is the stock keeping unit, or SKU. 
This SKU is simply a unique identifying number that applies to 
each distinctly packaged and marketed product.
    A single national SKU facilitates efficient storage, 
distribution, and inventory tracking. Manufacturers do not 
create different SKUs for different states. Vermont's legal 
time clock is ticking, and manufacturers will have to determine 
which products contain ingredients likely derived from GE 
crops. Companies will navigate Vermont's exemptions, such as 
foods bearing USDA-approved labels. Restaurant food is also 
exempted, and this could impact segregation and transportation 
costs. Each exemption provides more complexity to the supply 
chain, less clarity for consumers, and more red tape for 
manufacturers.
    Manufacturers will have to make new labels with state-
approved text and design. Labeling materials are one of the 
largest expenses affecting a manufacturer's bottom line. And 
the inventory left over when a manufacturer implements a 
labeling change must be discarded, which is a waste not only of 
materials, but the money the manufacturer may have spent in 
anticipation of using that stock. Waste and recycling charges 
will also apply.
    At the processing facility, let's assume it takes 5 minutes 
to stop and start to accommodate the new package. This reduces 
production time as the companies pay for the lost time and 
labor, energy, and capital costs of depreciation.
    Now assume a single plant with 10 lines running 
simultaneously, each with one Vermont run per payday, over 300 
days in the year. That makes 500 lost hours per year, or about 
3 weeks of idle time. These assumptions are meant for 
illustration with respect to only one single plant. Large 
manufacturers may have dozens of plants, and each plant may 
have dozens of production lines. The Vermont products would 
then need to be segregated from the other products and be 
placed on their own pallets. Pallets take up space wherever 
they go. They will take up space in warehouses, on trucks, and 
at customer distribution centers. These Vermont pallets must 
have sufficient space to reduce the risk of product being 
shipped to the wrong state; namely, product not intended for 
Vermont ending up on shelves there.
    Manufacturers would have to renovate or purchase new 
storage space or real estate. Additional pallets means 
additional trucks will be needed to transport products to 
customers. The trucks are capital investments with ongoing 
maintenance needs and associated labor costs. And this is just 
on the manufacturing end of the supply chain. The products 
intended for Vermont must then go through distributors and/or 
retailer supply chain systems who purchase the product and 
thus, then, own it exponentially increasing the costs to 
service Vermont and also increasing the chance for error.
    Despite best efforts, mistakes will be made. One 
manufacturer calculates that 7 to 10 percent of non-Vermont 
product could be shipped to Vermont in error. That manufacturer 
will face penlites of $1,000 per day per product. For a large 
company that has 2,500 SKUs, could translate to 175,000, or 
$250,000 in daily fines. Multiplied by thousands of products 
among multiple companies, these fines quickly reach tens of 
millions of dollars. Products would long shelf lines greater 
than 18 months that are currently in distribution or already on 
the shelves will be subject to fines.
    Mr. Chairman, from a supply chain logistical perspective, 
this law really is a nightmare. U.S. Consumers benefit from the 
safest and most efficient food supply in the world. I urge 
Congress to protect our national food system from an 
unnecessary patchwork of state-labeling schemes that will hurt 
American employers and do nothing to protect consumers.
    I thank you very much for your time.
    [The prepared statement of Mr. Blasgen follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
   
    
    Mr. Pitts. The chair thanks the gentleman.
    I recognize Mr. Daloz for 5 minutes for an opening 
statement.

                    STATEMENT OF TODD DALOZ

    Mr. Daloz. Thank you. Chairman Pitts, Ranking Member Green, 
Congressman Welch, and members of the subcommittee, thank you 
for the opportunity to testify today. As you are well aware, 
the State of Vermont has been deeply involved in the labeling 
of food produced with genetic engineering, passing a law 
requiring such labeling, which will take effect a little over a 
year from now. Vermont's Attorney General, Bill Sorrell, is 
tasked with the enforcement of this law and has adopted 
regulations implementing the law. My name is Todd Daloz, I am 
an assistant attorney general, and I am testifying today on 
behalf of Attorney General Sorrell about the draft legislation 
and the discussion draft of the H.R. 1599 and to discuss and 
answer questions about Vermont's experience in labeling foods 
produced with genetic engineering.
    In my oral testimony, I want to highlight two main points 
as we begin. The first is the role of states within our 
democracy and the importance of the state and the Federal 
Government in sharing responsibility for protecting consumers.
    What is most troubling about the proposed legislation, both 
the draft in front of you and the discussion draft, is that it 
would cut short and prematurely end state efforts to label 
foods before Vermont's law even takes effect. It also offers no 
substantive replacement for the regulations Vermont has in 
place.
    Vermont does not oppose all of the Federal regulation in 
this area, nor even all elements of the bill. What is important 
to Vermonters is the ability to have accurate factual 
information in front of them in order to make informed 
decisions about their food purchasers.
    And this is a historical design of our democracy. States, 
in the famous words of Justice Brandeis, have long been the 
laboratory of democracy, experimenting with social and economic 
policy in manners that allow them to test how policy works and 
determine the best course. And there is a robust history of 
states leading the way towards ultimate Federal regulation.
    Two simple examples that come to mind, the first is fair 
credit reporting. Vermont and other states were among the first 
to require credit reporting to consumers. And as we all know, 
Congress ultimately moved forward with that, making it national 
law.
    Another example that was referenced by Mr. Blasgen is menu 
labeling--I believe it was Rick--menu labeling, which New York 
began requiring the labeling of certain nutrition facts at 
chain restaurants. Vermont and other states followed suit, and 
recently the FDA has implemented the same informational 
labeling requirement nationwide.
    Vermont's Act 120 is no different than that. It is the 
state taking a lead role in requiring a factual disclosure, a 
simple, four-word factual disclosure on the back of the 
package, stating nearly, produced with genetic engineering. It 
is not a warning. It is a notification. And it is a 
notification that is there to provide consumers with accurate 
information so, as the Vermont legislature found, they can make 
intelligent choices about their consumption.
    And that is the second point I want to talk about. Trusting 
people to make their own decisions is a fundamental American 
principle. And what Act 120 does is trust consumers to make 
their own decisions. It trusts consumers to be intelligent and 
make intelligent choices.
    There was tremendously strong demand in Vermont for this 
labeling bill. There is, in fact, strong demand across the 
country for such labeling. The legislature found that giving 
consumers this information enables them to make a choice 
similarly to calorie counts, to cartoon figures on the front of 
the package, to flavor. This is another piece of information 
that consumers want in order to make a decision about whether 
and how they will purchase their food.
    And it is important that there is no state oversight of 
what information is disclosed. It is nearly the presence of 
materials that have been produced with genetic engineering. 
This is not the state determining what is right for consumers 
to know. This is the state simply providing information for 
consumers to make decisions on.
    Lastly, I want to briefly touch upon the fact that 
Vermont's law also has flexibility in it. It doesn't mandate 
exactly where the disclosure has to be placed. It doesn't 
mandate the size of the font. It provides a floor for where the 
font is and where the disclosure should go, and that kind of 
flexibility, I think, is important as manufacturers and 
retailers begin to comply with Vermont's law.
    So I want to thank the committee and Chairman Pitts and 
also Representative Pallone for inviting me here today, and I 
am happy to answer questions.
    [The prepared statement of Mr. Daloz follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
    Mr. Pitts. Thank you.
    Mr. Reifsteck, you are recognized for 5 minutes for your 
summary.

                  STATEMENT OF JOHN REIFSTECK

    Mr. Reifsteck. Thank you. Chairman Pitts, Ranking Member 
Green, and members of the subcommittee, thank you for holding 
today's hearing. I am John Reifsteck, a grain farmer from 
Campaign County, Illinois, and chairman of the board of 
GROWMARK, a regional agricultural cooperative base in 
Bloomington, Illinois. Our co-op is owned by local member 
cooperatives and provides input such as seed, fuel, plant 
nutrients, crop protection products, and grain marketing 
services.
    I appreciate the opportunity to testify before you today on 
behalf of GROWMARK, the National Council of Farmer 
Cooperatives, and the Coalition for Safe and Affordable Food. I 
live in the farmhouse my grandfather built 101 years ago. The 
farm has sustained three generations of my family. My father 
and grandfather were good farmers, but the tools and the 
practices they used in our farm back then would not be good 
enough to meet the needs of our country and our world today. 
Instead, each generation of my family has used new technology 
to build on successes of the past.
    Global Positioning System, automatic steering, and 
biotechnologies are examples of new tools available today that 
future generations will use to build a better agriculture 
tomorrow.
    I know firsthand the value biotech crops provide for my 
operation. My farming experiences illustrate this. In the past, 
I have abandoned parts and fields that were riddled with insect 
damage or overcome by weeds. Harvesting those fields are not 
just an economic loss, but it presents a real risk of fiscal 
harm to my farm employees as did myself.
    These are memories I won't forget. They represent past 
challenges that biotechnology has helped me overcome. I am very 
proud to say that GROWMARK has been a key part of the solution 
to these problems. Our affiliated companies and farmer owners 
have been directly involved with use of biotechnology crops for 
a number of years. GROWMARK was at the forefront of providing 
this technology to producers when it first introduced in the 
1990s. I have successfully used biotech feeds in my farm since 
it became available. I believe the rapid adoption of these 
products reflects an understanding of their value and real-
world benefits.
    Farmers also realize that crops they grow today benefiting 
from biotechnology are just as safe and healthy as the crops 
grown by their parents and their grandparents. This is 
important to farmers and is providing our customers with safe 
quality products as our number-one priority.
    Biotechnology provides substantial benefits to producers, 
to the environment, and to consumers. To reverse course now 
would wreak havoc amongst America's agricultural industry. Make 
no mistake, that is what a patchwork of biotech labeling laws 
would represent, an unworkable step backward. A growing concern 
among farmers and co-op managers is this patchwork would not 
stop at the State level, but perhaps could extend down to the 
individual cities, counties and even townships. Food and 
agricultural companies, including cooperatives like GROWMARK, 
would have no choice but to comply with hundreds, perhaps even 
thousands, of varying, if not directly conflicting, labeling 
laws. A near impossible task for us.
    The Safe and Accurate Food Labeling Act introduced to this 
Congress by Representatives Mike Pompeo and G.K. Butterfield 
would ensure that the labeling of biotech ingredients of food 
products is based on consistent standards using sound science. 
It would allow those who wish to label their products as GMO 
free to do so by utilizing a verified process offered through 
the USDA, very similar to that of the Department's successful 
certified organic program.
    I encourage members of this committee and Congress to 
support the Safe and Accurate Food Labeling Act. This bill 
would ensure the consumers are provided with accurate and 
consistent information about the food they purchase while 
preserving the choices available to grocery shoppers and to our 
Nation's farmers.
    In conclusion, I strongly urge the subcommittee to support 
a voluntary, uniform, and national standard for labeling food 
products derived from biotech ingredients. The impact of not 
taking action would have a devastating effect on food and 
agricultural companies across the country, as well as farmers 
whose livelihoods depend on the freedom to conduct their 
business using the best methods available to them.
    Thank you, again, for the opportunity to testify before 
this committee.
    [The prepared statement of Mr. Reifsteck follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
        
    Mr. Pitts. The chair thanks the gentleman.
    Now I recognize Mr. Jaffe, 5 minutes for your summary.

                   STATEMENT OF GREGORY JAFFE

    Mr. Jaffe. Chairman Pitts, Ranking Member Green, I want to 
thank the House Committee on Energy and Commerce and the 
Subcommittee on Health for having today's hearing and inviting 
me as a witness on behalf of the Center for Science in the 
Public Interest.
    The issues surrounding the proper role of the Federal 
Government in the oversight of genetically engineered crops and 
the labeling of foods made with or without ingredients from 
those crops are issues of obvious public concern that Congress 
needs to address. It is critical that the Federal Government 
ensures that all GE crops are safe and that whatever 
information is provided to consumers about foods and 
ingredients made from those crops be truthful, neutral, and 
nonmisleading. I am here today as the director of CSPI's 
biotechnology project. CSPI is a nonprofit consumer 
organization established 44 years ago. CSPI works primarily on 
food safety and nutrition and publishes our nutrition action 
newsletter to educate consumers on issues surrounding diet and 
health. CSPI receives no funding from industry or the Federal 
Government.
    CSPI has long advised consumers, journalists, and 
policymakers that foods and ingredients from currently grown GE 
crops are safe to eat. The current crops have also provided 
tremendous benefits to farmers and the environment in both the 
United States and around the world. CSPI has advocated for 
improvements in current Federal oversight to ensure safety to 
humans, animals, the environment, and agriculture.
    I will limit my testimony today to the Federal Government's 
oversight of food and feed safety issues, which are the 
primarily responsibility of the FDA and directly related to 
this hearing. FDA ensures the safety of food under the Food, 
Drug, and Cosmetic Act. Under that law, FDA has established a 
voluntary consultation process whereby developers of GE seeds 
can provide FDA with safety data and their analysis of those 
data to show FDA that the crop is substantially equivalent to 
its conventional counterpart.
    When FDA consultation is completed, FDA responds that the 
seed developer by stating in a letter that FDA has ``No further 
questions about the developer's determination that the GE crop 
is substantially equivalent to its conventional counterpart.''
    CSPI believes that FDA should determine the safety of all 
GE food crops before foods from those crops enter our food 
supply. FDA should review the safety data submitted by the 
developer, conduct its own analysis of that data, and provide 
the developer and the public with its opinion on whether foods 
from GE crops are safe to eat by humans and animals. That would 
be consistent with how most other countries ensure the safety 
of GE crops.
    H.R. 1599 goes only a small step towards what we believe is 
the proper role of FDA to ensure the safety of GE crops and the 
foods made from them. H.R. 1599 would codify the current FDA 
voluntary consultation process. It does not require, however, 
FDA to provide its opinion on each particular GE crop safety. 
In addition, it does not put the burden of proof on the 
notifier to satisfy FDA that the GE food crops or foods and 
ingredients made from the crops are safe before marketing the 
GE crop.
    The recently announced amendments to H.R. 1599 does not 
correct those major deficiencies and does not grant FDA any new 
legal authority to ensure that GE food crops are safe. Instead, 
it amends the Plant Protection Act to state that a GE crop that 
has been granted nonregulated status under USDA regulations 
cannot be marketed in interstate commerce until the USDA has 
received from the developer the ``no further questions'' letter 
it receives from FDA. FDA would still not need to make its own 
independent determination that the GE food crops meet the 
safety standard, and the amendment does not provide FDA with 
the needed authority to prevent foods or ingredients from GE 
crops from entering the food supply until the notifier 
satisfies FDA of their safety.
    H.R. 1599 and the amendment provides USDA's agricultural 
marketing service with unique legal authority to establish a 
certification and labeling system for food manufacturers who 
wish to label foods that either contain or do not contain 
ingredients from GE crops. CSPI supports the Federal 
Government's oversight of GE and non-GE labels to ensure they 
are truthful, neutral, and nonmisleading. There is no standard 
definition of what it means to be a non-GMO, no standard way to 
describe that claim in a neutral manner, and no way for the 
consumers to know if that claim is accurate.
    While CSPI believes that there is no benefit to consumers 
from avoiding foods that contain ingredients from GE crops, 
CSPI understands that some consumers do want to buy such foods. 
The system that would be implemented at USDA if Congress passed 
H.R. 1599 would go a long way towards uniform labels with 
verifiable, nonmisleading claims.
    Therefore, CSPI endorses that portion of this legislation. 
I thank the committee for allowing me to testify, and I am 
happy to answer questions.
    [The prepared statement of Mr. Jaffe follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    
    Mr. Pitts. The chair thanks the gentleman. Right on time.
    The members are voting on the floor. We still have 12 
minutes. So we are going to continue the witnesses' testimony 
and some questions before we recess to go to the floor to vote, 
and then we will come back.
    Mr. Giddings, you are recognized 5 minutes for your opening 
statement.

                  STATEMENT OF L. VAL GIDDINGS

    Mr. Giddings. Thank you, Mr. Chairman, Mr. Green. I very 
much appreciate the invitation to testify before you this 
morning on behalf of the Information Technology & Innovation 
Foundation on the safety and appropriate labeling for crops and 
foods improved for biotechnology. ITIF is a nonpartisan 
research and educational think tank whose mission is to 
formulate and promote public policies to advance technological 
innovation and productivity. We focus on innovation issues. We 
have long been involved in the conversations about agricultural 
biotechnology and how best to ensure its widely shared benefits 
to humans and the environment are not burdened by ill-
considered policies, especially those based on fear and 
misunderstanding.
    I very much appreciate the opportunity to comment on these 
issues here today and thank, in particular, Mr. Pompeo for 
proposing this legislation, which I think is approaching 
perfection as a solution to some of the problems we face in 
this area on public policy.
    The introduction of crops improved through biotechnology, 
often called GMOs, has been one of the greatest booms to 
humanity in the last 10,000 years of our history. No other 
innovation in agriculture has been taken up more widely or more 
quickly, and none other has delivered greater benefits to 
humans, our livestock, and companion animals and the 
environment. These crops have been grown over the two decades 
on over 4 billion acres worldwide. Last year alone, they were 
grown on 448 million acres by 18 million farmers in 28 
countries legally, including a lot more where they were grown 
by farmers without government sanction where the farmers could 
get access to the seeds.
    The farm gate value added has totaled more than $120 
billion. And the environmental impacts of agriculture have been 
reduced, on average, by 18 percent. This has entailed a 37 
percent reduction in the use of pesticides, a 22 percent 
increase in yields, and a 68 percent increase in farmer income.
    The single most important element in the equation of credit 
for this avalanche of global benefits is the science-based 
regulatory process adopted by the United States in 1986 for 
which you and your colleagues and your predecessors bear an 
enormous amount of credit.
    The bipartisan endorsement supporting the science-based 
approach to regulation that has been in place in the United 
States for the past four decades has been absolutely essential 
and made it possible for this technology to be developed, 
adapted, and disseminated. The intention of H.R. 1599 to extend 
this legacy of bipartisan support for science-based regulation 
is important as special interests seek to undermined its 
credibility and authority with false claims and ill-considered 
policy proposals at every level, particularly at the State 
level. Congress clearly has authority to address these issues 
and should formally preempt state level actions as the 
Constitution directs in Article 1, Section 8, Clause 3, the 
interstate commerce clause.
    I am less enthusiastic and, indeed, would advise against 
one provision before you in this legislation, which would 
change the nature of the FDA safety review process for 
bioengineered foods by making it mandatory. It widely 
acknowledged that the biotech-derived foods on the market today 
are safe, that they have all gone through this review process, 
the review process has worked and is working well, does not 
need any fixing; there are no safety issues outstanding, which 
it fails to address.
    I know that there are those who favor making this process 
mandatory, but if Congress were to take that step, it would, 
for the first time, step away from the science-based regulation 
that has served us so well for decades. I say this because the 
term ``GMO'' is an artificial construct, and it does not 
represent a meaningful class of items deserving of special, 
much less discriminatory, regulatory status or scrutiny. That 
category further bears no meaningful relation to hazard or 
risk. GM is a process. It is not a product. Provisions with FDA 
regulations on labeling already in place mandate consumer 
information about the contents of the foods that they buy and 
consume.
    So I would enter a plea that as you consider these issues, 
please think carefully about what will help accomplish your 
objectives and what will not. Making it clear to the States 
that labeling is a Federal responsibility, that is something 
that would be helpful. Actions that some will construe and 
represent to be an acknowledgement that there are safety issues 
or concerns where, in fact, there are none, would not be 
helpful. Thank you for the opportunity to speak to you this 
morning, and I am happy to answer any questions.
    [The prepared statement of Mr. Giddings follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
       
    Mr. Pitts. The chair thanks the gentleman. The chair advise 
the members, there is still 7 minutes left to vote, but some 
382 members have not yet voted.
    So I will begin questioning and recognize myself 5 minutes 
for that purpose.
    My first question is for each of you. Today's hearing is 
not the first hearing this subcommittee has held on this topic. 
Previously, the FDA has stated that their current consultation 
process has provided appropriate oversight of new foods derived 
from genetically engineered plants. FDA testified before this 
subcommittee last December that the consultation process is 
working well and provides for rigorous food safety evaluation 
of such foods. I would like to ask each of our witnesses, do 
you agree with the agency's assessment? Yes or no?
    Mr. Blasgen?
    Mr. Blasgen. Yes.
    Mr. Pitts. Mr. Daloz?
    Mr. Daloz. I don't believe I have a basis for agreeing or 
disagreeing, but I trust the agency.
    Mr. Pitts. Mr. Reifsteck?
    Mr. Reifsteck. Yes.
    Mr. Pitts. Mr. Jaffe?
    Mr. Jaffe. No.
    Mr. Pitts. Mr. Giddings.
    Mr. Giddings. Absolutely yes.
    Mr. Pitts. All right, thank you.
    FDA also testified in December that there have not been any 
material differences identified between genetically engineered 
ingredients and those derived from traditionally-bred crops. 
Again, would each of you please answer, yes or no. Do you have 
any evidence to the contrary?
    Mr. Blasgen?
    Mr. Blasgen. No.
    Mr. Pitts. Mr. Daloz?
    Mr. Daloz. No.
    Mr. Pitts. Mr. Reifsteck?
    Mr. Reifsteck. No.
    Mr. Pitts. Mr. Jaffe?
    Mr. Jaffe. No.
    Mr. Pitts. Mr. Giddings.
    Mr. Giddings. There are some examples where there are 
material differences as with cooking oils that have been 
modified to be more heart healthy. But where those have 
occurred, they have still been reviewed by FDA; they have 
passed the safety reviews, and the differences are indicated on 
the labels.
    Mr. Pitts. Thank you.
    Finally, FDA testified that there is scientific consensus 
about the validity of the research and science behind the 
safety of foods derived from genetically engineered plant 
varieties. Do any of you disagree with that?
    Do you disagree, Mr. Blasgen?
    Mr. Blasgen. No.
    Mr. Pitts. Mr. Daloz?
    Mr. Daloz. No.
    Mr. Pitts. I am sorry. I couldn't hear what you said.
    Mr. Daloz. No.
    Mr. Pitts. Mr. Reifsteck?
    Mr. Reifsteck. No.
    Mr. Pitts. Mr. Jaffe?
    Mr. Jaffe. For the current crops that have been grown and 
are being grown, I would answer no. But for each future crop, 
we need to look at those on a case-by-case basis.
    Mr. Pitts. Mr. Giddings?
    Mr. Giddings. I am not aware of any area in science where 
the consensus on safety is stronger than in this field.
    Mr. Pitts. All right. Mr. Giddings, can you explain what 
additional testing the Department of Agriculture conducts on 
new plant varieties used in food before they are 
commercialized?
    Mr. Giddings. Well, the USDA does not necessarily do 
testing for food safety per se. That is the province of FDA. 
USDA does extensive analyses of a vast and broad amount of data 
relevant to safety and potential impacts for U.S. Agriculture 
and the environment. These are--the data that is submitted by 
applicants comes in response to their filling out APHIS' Form 
2000, which lists a series of questions relevant to the safety 
of these crops on which the USDA wants data. The amounts of 
data provided are voluminous. They go far beyond, in fact, what 
regulators need to know to assess the safety of these crops. 
These crops have been examined in more depth, in more detail, 
in advance for safety than any others in human history, and 
their record of safety is unblemished.
    Mr. Pitts. All right.
    Mr. Giddings, or any of you, I have heard from a number of 
constituents who insist, despite this evidence to the contrary, 
that GMOs are dangerous to their health and are harming the 
environment. Why has this sentiment recently proliferated? Who 
would like to speak to that? Mr. Giddings?
    Mr. Giddings. Well, Mr. Chairman, there are very few issues 
in our lives to which we are more emotionally attached than 
food. And the idea of somebody messing around with our food 
supply is inherently one of concern. And folks who have issues 
with food, their concerns are heightened. And there is a very 
well-funded campaign of special interests who have adopted 
raising unwarranted fears in this way as their marketing tactic 
through which they seek to expand their market share. This 
campaign has been funded massively and executed across the 
United States and around the world for years, and they have 
succeeded dramatically in shaping the public view on these 
issues to create an appearance of safety issues where, in fact, 
they are absent.
    Recent surveys have shown that the difference in opinion 
between the public and between the scientific community on 
these issues is wider than on any other major public policy 
issues before us today, and this is the result of an ongoing 
propaganda campaign designed to raise fears and mislead 
consumers, and this mandatory labeling push is an integral part 
to that.
    Mr. Pitts. My time has expired.
    We still have a minute and a half to vote. But 288 members 
haven't voted yet, so the chair recognizes Ranking Member Green 
for 5 minutes of questions.
    Mr. Green. Thank you, Mr. Chairman.
    I want to thank our witnesses testifying today on GMOs.
    Dr. Giddings, one of my concerns, are you aware of any 
instance where a GMO crop caused an adverse impact on human or 
animal health? And, frankly, why don't we start with you and we 
can go down the list.
    Mr. Giddings. There are none, sir.
    Mr. Green. Mr. Jaffe?
    Mr. Jaffe. I am not aware of any, but when you genetically 
engineer a crop, what you are doing is adding some DNA that 
might produce a protein. And we do know that some proteins can 
be allergens to humans. So I do think we need to check those to 
make sure for example that does not occur for a new genetically 
engineered crop.
    Mr. Green. Would the bill that we are discussing today 
correct that with the authority given?
    Mr. Jaffe. So FDA looks at data from the companies on a 
voluntary basis concurrently, and H.R. 1599 would make that 
process mandatory. What I think is missing is FDA giving its 
opinion on the safety of that food.
    Mr. Green. OK. Mr. Reifsteck?
    Mr. Reifsteck. In my farming operation, actually, GMOs have 
increased the safety of my farming operation, because they have 
allowed us to substitute GMO technology for other products that 
are more dangerous for me to use on my farm.
    Mr. Green. Mr. Daloz, anything to offer from the Attorney 
General's Office?
    Mr. Daloz. I am unaware of any such studies.
    Mr. Green. Mr. Blasgen?
    Mr. Blasgen. No.
    Mr. Green. Mr. Giddings, are you aware of a situation where 
an unknown consumption of GMO in grain has caused adverse 
health reaction? Again, to all five of our witnesses.
    Mr. Giddings. There are none on the record. And on the 
issue of allergenicity, that is one of particular concern to me 
because my son has a life-threatening peanut allergy. And I can 
tell you, Congressman, that the only foods that are reviewed 
before they are introduced to the market for allergenicity, the 
only food so reviewed are biotech derived.
    Mr. Jaffe. I am not aware of any harm.
    Mr. Blasgen. I am not aware of any.
    Mr. Daloz. I am not aware of any harms, but I am aware that 
consumers have deep concerns about that issue.
    Mr. Green. And I know the concerns, and I think the 
legislation would probably would move it forward to help with 
some certainty including FDA oversight.
    One of my other questions, Mr. Reifsteck, and can you 
explain how the state-by-state patchwork would affect farmers 
and co-ops, and also Mr. Blasgen, then I will start with Mr. 
Reifsteck first.
    Mr. Reifsteck. Well, certainly, having to fulfill all the 
requirements of every state is a difficult, time-consuming, and 
expensive proposition. As you think about how we grow crops in 
the United States, we grow corn; we grow soybeans. If we have 
to identity preserve those crops to make sure they fit into a 
marketplace, for example, non-GMOs, that adds a tremendous 
amount of time and expense to the production of those crops 
because we have to shepherd those all the way from the seed to 
my farm, to the end user, and that will add cost and expense.
    Mr. Blasgen. I will add also manufacturers typically 
produce products for the Nation through a series of 
distribution networks. That product is shipped, then, into the 
retail network and then finally to the consumer shelf where its 
purchased. So the right to know, the choice is very important, 
that is why clear national standard is so critical to the 
manufacturing community.
    Mr. Green. It would seem to be the same thing on the 
labeling, because I don't think we will ever have 50 different 
labeling requirements, but if two or three states do it, then, 
really that shows we need a national standard.
    Mr. Blasgen. Right. The level of complexity with that type 
of labeling would be an incalculable burden on manufacturing.
    Mr. Green. OK. Mr. Chairman, I thank you. Appreciate it.
    Mr. Pitts. The chair thanks the gentleman.
    Time has expired on the floor vote, so we will come back as 
soon as we vote. There are two votes.
    And the committee stands in recess for the floor vote.
    [Recess.]
    Mr. Pitts. The time of the recess having expired, we will 
continue with the questions.
    And, at this point, the chair recognizes the gentleman from 
Kentucky, Mr. Whitfield, 5 minutes for questions.
    Mr. Whitfield. Well, thank you, Mr. Chairman.
    And I want to thank all of the witnesses for joining us 
today on this very important subject. As a matter of fact, I 
walked out of this hearing to go back to my office before I 
went to the floor for a vote, and there were a group of seven 
people in there who wanted to talk about this bill. So somebody 
is really organized today, Mr. Shimkus. But it is an important 
issue.
    And, Mr. Jaffe, I would like to just ask for your comments. 
FDA has made it very clear that their current consultation 
process is rigorous, involves a number of experts well versed 
in these methods, and is entirely, to use their words, entirely 
sufficient for purposes of reviewing the safety of these 
products.
    And so, if the FDA is perfectly comfortable in the process, 
feels that it adequately protects the public and food safety, 
why are you arguing for new legal authority that FDA does not 
believe it even needs?
    Mr. Jaffe. So thank you very much for the question.
    I agree with you that FDA is clearly the agency in the 
government with the expertise on food safety. And if there is 
any agency that should be deciding the safety of GM crops or 
anything that goes in our food supply, it should be the FDA, 
and I believe that they do have that expertise. So I agree with 
you that they have the expertise and they are using that in 
this consultation process.
    But I think this consultation process works only because of 
the good nature of the companies that are coming forward with 
these genetically engineered seeds, with that data. They are 
not required by law to do that. And while there are lots of 
incentives for companies that are based in the United States to 
do that, that may not be the case for imported foods that come 
in from other countries.
    So I can give you an example of China, which is now 
spending $300 million a year doing research on genetically 
engineered crops. And so they may be soon growing a genetically 
engineered rice variety, and that rice variety may get turned 
into different food products that get imported into the United 
States. And those companies may not think of the voluntary 
process as mandatory. And FDA may not know about those because 
they weren't homegrown products that started with research 
trials in a company or at a university here in the United 
States. So USDA may not be aware of those.
    And so FDA needs those tools to deal with those imports 
that come into this country. They need that authority to make 
sure that something is overseeing that those foods are safe.
    Mr. Whitfield. So your primary concern is on imports?
    Mr. Jaffe. That is one thing, and also on the exports. I do 
a lot of work in developing countries and around the world, and 
we do a lot of exports of our genetically engineered crops. And 
those countries can't look to the FDA decision. There is no 
opinion from FDA that these are safe.
    And so those countries--many of our exporters from the U.S. 
would like to say to those countries, ``Please defer to FDA 
here. They have shown that this is safe.'' And many countries 
in the world do that with lots of other foods or drugs that the 
U.S. does approve. But, in this case, because there is no 
approval, they can't do that, and so they have to have their 
own process.
    So it hurts both our exports as well as our imports.
    Mr. Whitfield. And, Mr. Giddings, I get the sense that you 
have an opinion about this, as well. So tell me what you think 
about it.
    Mr. Giddings. Mr. Whitfield, Mr. Jaffe and I have been 
friends for three decades, and it gives me a great deal of pain 
to have to disagree with him, but I think virtually everything 
he said here is mistaken.
    There are a couple things that we need to remember. Number 
one is that FDA has absolute authority to require that all food 
placed on the market in the United States be safe. That is all 
the authority they need. It doesn't matter what process is 
used; if it is food on the market, FDA has the authority to 
ensure that it is safe.
    The other thing to remember is that this category of GMOs 
or GM foods or whatever you want to call it is based upon a 
definition that is fundamentally at odds with the facts as we 
find them in the real world. This category is an artificial 
category. There is no meaningful basis to distinguish 
genetically modified organisms from others that are not, 
because everything on Earth is genetically modified.
    There is no correlation between those products of the most 
modern plant-breeding technologies and any hazard or food 
safety risk. These things have an unblemished safety record. We 
know what causes safety problems in the consumption of food, 
and it is primarily the presence of pathogens. The only impact 
that biotech-derived foods are likely to have is to reduce the 
potential for pathogenic infestations.
    So this whole idea that this is somehow a category that is 
meaningful in a sense that is relevant to risk assessment or 
safety is just contradicted by the facts, data, and vast 
experience.
    So the FDA is correct; there are no data, there is no 
experience which suggests that they need additional authorities 
or that there is a problem here in need of fixing.
    Mr. Whitfield. Mr. Reifsteck, do you have a comment you 
would like to make on this?
    Mr. Reifsteck. Well, I am obviously not qualified to talk 
about the regulatory process, but I will say that the American 
farmers do trust our regulatory process. They believe that 
these products are safe. And they do need a regulatory process 
that delivers products to farmers in a timely manner to deal 
with the issues we have to deal with in the future.
    Mr. Whitfield. Yes.
    To the attorney general of Vermont, I am certainly not an 
expert in food safety. I buy a lot of food, though. But anytime 
you go to a store and you see on a label ``this contains such 
and such'' or ``this may contain such and such,'' it almost 
seems like it is a warning label.
    And just, without giving a lot of thought to this--and that 
is why we enjoy these hearings--without giving a lot of thought 
to it, I mean, I think that is one of the primary concerns I 
would have about the Vermont law. It almost looks like it is a 
warning label. And I'm not aware of any scientific evidence 
that there is any safety issue involved, truthfully.
    Would you want to make a comment on that?
    Mr. Daloz. Certainly, Congressman. And thank you for the 
question because I think it is an important distinction to make 
with regards to Act 120 and the disclosure that Vermont's law 
requires.
    Fundamentally, the placement of that disclosure and the 
size and the font and things like that--in looking at the issue 
of how consumers are interested in this information and how 
they can best access the information, the attorney general's 
office intentionally chose to make the disclosure either--there 
are choices for industry. It can be the same size as the 
serving size disclosure on the nutrition facts panel on the 
back that the FDA already requires or the ingredients listing 
there, the goal being to say it has to be easily read and it 
has to be easily found. Those are the standards.
    It is not a clear and conspicuous warning. It is a simple 
statement of fact on the back of the package, that if a 
consumer is interested in finding the information, they can 
look for it, they can read it, and they can make a choice 
accordingly.
    Mr. Whitfield. Mr. Chairman, thank you.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the ranking member of the full committee, Mr. 
Pallone, 5 minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    As I said in my opening statement, I don't think 
genetically engineered foods pose special safety or 
environmental risks or are otherwise different from non-GEO 
foods. Therefore, it doesn't seem to make sense to require them 
to be labeled.
    At the same time, unless there is some harm created by 
allowing Vermont to impose mandatory GE labeling, I don't think 
we in Congress should be telling Vermonters what to do. And I 
am hoping the panelists can help me figure this out.
    Let me ask a question. One issue I have heard is that 
requiring GE foods to have a special label would be inherently 
misleading because it would indicate that there was something 
different about those foods.
    So let me ask Mr. Jaffe: I know CSPI is a staunch supporter 
of strong food labeling. What are CSPI's views on that 
question?
    Mr. Jaffe. So, thank you for that question.
    CSPI has been a strong proponent of labeling as something 
very informative to consumers and important, but that labeling 
has to be truthful, neutral, and nonmisleading. I think that is 
critical.
    We have also been a strong believer that only the most 
important information should be mandated by the government. So 
if we are talking about safety information, whether something 
is an allergen, for example, would be something that, if people 
don't know about that, they could end up in the hospital about 
that; or nutritional information, how much salt or how much 
calories are in it, because that has a direct relationship to 
their diet.
    As you said, genetically engineered foods are--the current 
ones that are on the crop are safe. And so there is no safety 
or nutritional reason to label those.
    So, while we support the idea that there should be 
transparency and consumers who want to find that information 
about where their food comes from should be allowed to do that, 
I guess our view is that, in terms of when the government 
mandates labeling, those should be left for the most critical 
pieces of information. If we mandate everything on a label, the 
consumers don't know what is the most critical information.
    So, for us, the things that are most critical are either 
safety information or nutritional information. This doesn't 
qualify there. So, while we think and we understand the 
consumers want information about this, we think that there 
should be ways to figure that out less than mandatory, 
government-imposed labels.
    Mr. Pallone. All right.
    So let me ask Mr. Daloz why you don't think GE labeling is 
inherently misleading.
    I think one of my colleagues on the Republican side said, 
you know, if you see the label, you are just going to say, 
well, obviously, this is different or maybe this is bad, even 
though it doesn't say that.
    So why don't you think that the GE labeling is inherently 
misleading?
    Mr. Daloz. Thank you for the question, Congressman. There 
are two answers to that, and I will start with one that came 
along very recently.
    It is important to remember that H.R. 5099 is not the only 
challenge that Act 120 faces. The Grocery Manufacturers 
Association and a number of other trade groups have of course 
sued the State of Vermont to enjoin the law from ever taking 
effect. And it is important for this body to remember that 
there is a bound on what Vermont can do in terms of misleading 
labels or anything like that----
    Mr. Pallone. I know that I am interrupting, because I want 
to ask another thing.
    Mr. Daloz. OK.
    Mr. Pallone. I just want to know why it is not misleading. 
You have to tell me that.
    Mr. Daloz. Well, I will say----
    Mr. Pallone. I haven't decided what to do here, OK?
    Mr. Daloz. To cut myself shorter, the Federal court just 
ruled that it wasn't misleading, that it was, in fact, a 
straightforward factual disclosure. ``Ruled'' is a strong word, 
but agreed with Vermont's position and indicated that that was 
how the court was looking at it.
    And, again, that is the fundamental piece of Act 120, that 
is it is a factual disclosure about a process involved in 
making the product.
    Mr. Pallone. All right.
    Let me see if I can get--I only have a minute. My other 
main question about the labeling is whether it imposes undue 
burdens on industry.
    So, Mr. Blasgen or Mr. Reifsteck--we don't have much time--
I understand that neither of you support mandatory labeling. 
However, why would putting a statement such as ``produced with 
GE ingredients,'' just that, ``produced with GE ingredients,'' 
on a label require a need to create new supply chain lines or 
new distribution lines?
    What problems do you foresee with the inclusion of just a 
small statement like that that doesn't say it is good or bad or 
anything, just ``produced with GE ingredients''?
    Mr. Blasgen. I think if it is--thanks for the question.
    I think if it is a clear national standard, manufacturers 
can deal with it. If we had multiple States requiring different 
labeling requirements for all of these products, it would be an 
enormous burden on them to make sure that they got it right.
    Manufacturers secure their supply chains. They are very 
concerned about securing the ingredients and their finished 
goods right up and to the point of consumption. In particular, 
this issue is that the manufacturers find themselves liable for 
product that is outside of their control. So that is one aspect 
of it.
    But they are----
    Mr. Pallone. It sounds like you are saying you wouldn't 
have a problem with that label.
    Mr. Blasgen. Well, there clearly is a problem for multiple 
labeling directions coming from many different entities.
    Mr. Pallone. So what if it was one national standard, 
``produced with GE ingredients''?
    Mr. Blasgen. I think if there is a clear national standard, 
that minimizes the risk in that. I think that they would have 
an easier time dealing with that type of law versus many, many 
different types of States imposing laws upon them.
    Mr. Pallone. Thank you.
    Mr. Pitts. Mr. Reifsteck, do you want to respond?
    Mr. Reifsteck. Please.
    I think American farmers have demonstrated they can produce 
very safe and abundant and inexpensive food. We have a history 
of doing that. And I think if there is a demand for non-GMO 
foods, American farmers will respond, and they will produce 
those non-GMO foods.
    Our challenge is we don't want consumers, maybe low-income 
consumers, to have to pay burdensome costs for a supply chain 
management program if they are not interested in purchasing 
non-GMO.
    So what this act does, it gives us a pathway. As a farmer, 
I can decide if I want to grow GMO crops or non-GMO crops. 
There is a standard that it can enter into the marketplace to 
give consumers not only the right to know but a right to choose 
products. And I think that is what is powerful about this 
legislation.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentleman from Illinois, Mr. Shimkus, 5 minutes 
for questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    And to my friend, Ranking Member Pallone, my question is 
going to follow up on yours in two points.
    So one is, that the country feeds the world. United States, 
we feed the world. And I would argue, being from Illinois--and 
I am glad John is here--Illinois and the Midwest is a 
predominant producer of base commodity products that go around 
the world.
    So, John, these two questions are for you. First of all, 
the last couple years, we had a pretty big drought. Had we had 
that drought a decade ago or two decades ago, what would have 
been the result? And what made our ability to withstand the 
drought survivable?
    Mr. Reifsteck. Well, droughts for farmers are years that 
burn themselves into your memory. 1993--I can go through the 
list of these droughts. And I tell people the drought of 2012 
was different. Because even though we didn't have a good 
rainfall and because we had very high temperatures, we still 
had reasonable yields across much of the corn belt.
    And it makes sense, if you can protect a plant from damage 
to the root system, if you can protect the plant from damage to 
the stems, if you can protect it from weeds, then it can 
maximize the use of the water that is available.
    Mr. Shimkus. And how do you do that?
    Mr. Reifsteck. And you do that with biotechnology.
    Mr. Shimkus. Thank you.
    Mr. Reifsteck. Biotechnology is the best solution for those 
problems I just talked about by far. The safest, most efficient 
way for me to get those kinds of results is by using 
biotechnology.
    Mr. Shimkus. And not just in the United States, but as we 
assist other countries around the world to feed themselves, it 
is through the great aspect of science that has allowed us to 
do this. And, unfortunately, it is an untold story in this 
debate, because without it and the population growth and the 
climate changes, we could be in a disastrous position.
    Let me go to the next question, because it really talks 
about an individual producer. So the producer sometimes gets 
lost in this debate. OK, so we have now this bifurcated system 
of labeling and not labeling and a supply chain. Tell me how a 
corn or a bean farmer in central Illinois who is planting 750 
to 1,000 acres, what would you have to do?
    Mr. Reifsteck. What would I have to do to----
    Mr. Shimkus. To produce two sets of corn going for the same 
product, one GMO, one non-GMO.
    Mr. Reifsteck. Well, basically, it would start with the 
selection of the seed. We would have to buy different kinds of 
seeds. We would have to make sure that we keep the integrity of 
that seed, that it only is planted in the field. We would have 
to do----
    Mr. Shimkus. You would have to stop the winds maybe?
    Mr. Reifsteck. You would have to stop and clean planters 
out. You would have to make sure that the right products get 
incorporated into the field.
    Mr. Shimkus. You would have to have different silos?
    Mr. Reifsteck. You would absolutely have to have different 
silos.
    Mr. Shimkus. Different trucks?
    Mr. Reifsteck. You would have to have--the trucks and the 
harvesting equipment all would have to be cleaned.
    Mr. Shimkus. So when it went to the food processing 
facility, would they have to have different silos?
    Mr. Reifsteck. Absolutely. Absolutely. You would go----
    Mr. Shimkus. Two different whole chains?
    Mr. Reifsteck. You would go to--special elevators where we 
deliver grain would have special handling equipment that was 
designed to handle that equipment and keep it segregated. So, 
yes----
    Mr. Shimkus. So I know that corn now is sold around the 
world. And I was kind of surprised that sometimes they are in 
containers and container----
    Mr. Reifsteck. Yes.
    Mr. Shimkus. I always think they would be in a big hull, 
you know, and you just pour all the corn in.
    So what if it pulls up to a port and they do a sample and, 
of the billions of kernels, they find one that is either/or? 
Then what happens?
    Mr. Reifsteck. Then that country or company that finds that 
kernel will decide whether they want that shipment of corn or 
not. If it is in their favor, they could decide to take it. Or 
they could decide to reject it.
    Mr. Shimkus. So this is really a big debate that we are 
having, and I think we need to tread very careful.
    I want to thank my colleague for taking the leadership on 
this, Mr. Pompeo. I mean, he has the wheat story to tell, I am 
sure, which is very similar to a corn or a bean story. And we 
haven't even talked about segueing it into the livestock issue 
and the feed issue and multiple, multiple other derivations 
that this--so that is why I am a cosponsor and look forward to 
working with him as he moves it forward.
    And I yield back, Mr. Chairman. Thank you.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentlelady from California, Mrs. Capps, for 5 
minutes.
    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
hearing.
    And I thank each of our witnesses for your testimony.
    I firmly believe that consumers have the right to make 
informed decisions about the food they eat. I hope this is a 
point on which we all can agree.
    And I think there is general agreement that a good Federal 
standard for genetically engineered, or GE, labeling is 
preferable to a confusing patchwork of State labeling rules. 
But there is disagreement about exactly what that standard 
should be. And I am not convinced that H.R. 1599 will assure 
consumers that they have the reliable and clear information 
that they are looking for.
    Dr. Jaffe, do you think this bill meets consumer demands 
for clear, consistent labeling of GE products?
    Mr. Jaffe. So I think we don't have a good idea of what 
consumer demands really are. So there are a number of polls, 
and if you ask the question, do you want GE labeling, most 
consumers say yes. If you ask them do they want pesticides 
labeled, they say yes; if you want antibiotics labeled, they 
say yes. And as a consumer myself, if somebody offered me more 
information, why would I say no to that?
    But there is a Rutgers poll where they asked open-ended, 
what new information would you want on the label, and I believe 
it was 7 percent who said GM labeling. And, again, when they 
asked people what do they want for all of those different 
things I just mentioned, everybody said 70 percent for each of 
those.
    So I guess I am not convinced that there is an overwhelming 
number of consumers. And I think most of those polls show--the 
Rutgers poll, which I think is a good, independent poll--and I 
am happy to submit that to the committee.
    Ms. Capps. That would be great.
    Mr. Jaffe. That two-thirds of consumers haven't even had a 
discussion about this in the last 3 years and don't know about 
it.
    So providing information without knowledge about what that 
information means can inherently be misleading.
    Mrs. Capps. Well, could you provide for us, within your 
purview, the difference between organic, non-GMO, and natural 
food products? How do these types of products differ from one 
another? Just to set the record straight here.
    Mr. Jaffe. So an organic product, there is an actual 
definition. So USDA has a definition of what is organic.
    Mrs. Capps. OK.
    Mr. Jaffe. And if you follow that definition, then you can 
call your food organic in the United States. And those have 
certain procedures that have to be followed, certain rules that 
have to be followed. It is not based on science. It is based on 
did you follow the rule.
    Mrs. Capps. Right. OK. That is clear then.
    Non-GMO, is that----
    Mr. Jaffe. So, currently now, there is no uniform 
definition of what non-GMO is.
    Mrs. Capps. Oh.
    Mr. Jaffe. So there are private certifiers, such as the 
Non-GMO Project, which have their own definition of it. There 
are other companies that have come up with their own. And there 
are countries that call non-GMO--sometimes they use a 1-percent 
threshold, sometimes they use a 0.9-percent threshold----
    Mrs. Capps. OK.
    Mr. Jaffe [continuing]. A host of different things. So that 
is not uniform.
    Mrs. Capps. I understand.
    Consumers, however, we all agree, should not be confused 
about something as basic and fundamental as the food they eat. 
And consumers should be able to trust that the labeling on the 
food is accurate and truthful.
    And FDA currently has a policy of self-regulation. 
Producers have the option to voluntarily label their GE foods. 
However, over 15 years after the implementation of this policy, 
very few products on the market have been labeled as being 
genetically engineered. Yet we all know there is a great number 
of GE foods on the market.
    The fact is consumers want to know if their food is GE, and 
they are calling on policymakers to help make this information 
more accessible. And I think that is why we are looking 
carefully at Vermont's new law, because it is a reflection of 
this consumer demand.
    Mr. Daloz, can you explain how the Vermont law 
differentiates between foods that are labeled as ``produced 
with genetic engineering,'' and foods that are labeled as 
``partially produced with genetic engineering''? What is the 
difference there?
    Mr. Daloz. Certainly, Congresswoman. And this is part of 
the flexibility that Vermont's law has built into it.
    If a product contains less than 70 percent GE material by 
weight, then a producer can choose to use the statement 
``partially produced.'' Otherwise, the standard statement is 
``produced with genetic engineering''----
    Mrs. Capps. I see.
    Mr. Daloz [continuing]. And that has to occur on any 
product.
    Mrs. Capps. Well, I submit that we need to make sure that 
labels are clear and informative for consumers, and H.R. 1599 
falls short of this standard. But I hope we can work together 
to find the right balance that works for both consumers, as 
Vermont has done, or is doing, and industry as well.
    And, with that, I yield back the balance. Thank you, Mr. 
Chairman.
    Mr. Pitts. The chair thanks the gentlelady and now 
recognizes the gentleman from Indiana, Dr. Bucshon, 5 minutes 
for questions.
    Dr. Bucshon. Thank you very much, Mr. Chairman.
    I just want to say I support the consumer's right to know 
what is in their food products, but I also think it should be 
based on science. And I support Congressman Pompeo's 
legislation.
    I know it has been said, but I want to reiterate for the 
record some quotes from organizations around the world, really, 
talking about GMO.
    American Medical Association: ``Our AMA recognizes that 
there is no evidence that unique hazards exist either in the 
use of GE techniques or in the movement of genes between 
unrelated organisms. Bioengineering foods have been consumed 
for close to 20 years, and, during that time, no overt 
consequences on human health have been reported or 
substantiated in peer-reviewed literature.''
    Natural Academies of Science: ``Genetic engineering is one 
of the newer technologies available to produce desired traits 
in plants and animals used for food, but it poses no health 
risks that cannot also arise from conventional breeding and 
other methods used to create new foods.'' They go on to say, 
``An analysis of the U.S. experience with genetically 
engineered crops shows that they offer substantial net 
environmental and economic benefits compared to conventional 
crops. Generally, GE crops have fewer adverse effects on the 
environment than on non-GE crops produced conventionally.''
    And, finally, the World Health Organization: ``GM foods 
currently available on the international market have passed 
risk assessments and are not likely to present risks for human 
health. In addition, no effects on human health have been shown 
as a result of the consumption of such foods by the general 
population in the countries where they have been approved.''
    So, that said, as a medical doctor, I was charged with 
advising patients on therapy that works, therapy that doesn't 
work. And, of course, based on the Internet and other sources, 
there are all kinds of proposed therapies for cancer and heart 
disease out there that have been unsubstantiated that patients 
frequently ask me about.
    And so I guess my question to everyone on the panel is, 
should people like elected officials or other people who are in 
charge of informing the public, should we buy into what I see 
is a movement without really substantiated reason to be there 
in the first place? Or, for example, me, buy into a treatment 
that is not proven to be effective? Or should I lead and should 
I say to my patients or should I say to the general public what 
the facts are and not buy into unsubstantiated claims?
    And what I see honestly is really, for the most part, a 
political and economic movement--political because of 
misinformation and economic because of companies that want 
their product to be labeled non-GMO so that they can compete 
with everybody else.
    So I will start at the end, and just comment on what your 
thoughts are. Should we buy in, or should we inform the public 
and stand up to what is clearly misinformation?
    Mr. Blasgen. Right. As a consumer, I believe we should 
inform the public, as you say. And I think that everyone here 
believes there is a right to know and that choice is very much 
of importance here. We care about consumer choice as consumers, 
but we also want to understand the implications as an industry 
person on what demands we are going to place on industry and 
whether it is going to be effective, as well. And, in this 
case, we don't think so.
    Mr. Daloz. I think there is a challenge here, and that is 
that to disable consumers from accessing information that they 
are interested in having suggests that the government has a 
role in controlling information people want----
    Dr. Bucshon. I am going to interrupt just briefly. As a 
medical doctor, should I promote a therapy that I know not to 
be effective because the Internet says that it is?
    Mr. Daloz. I respect the example. What I would say is that 
there is no promotion going on in Vermont's law. All there is--
--
    Dr. Bucshon. Well, there will be because people have a 
misperception that GMO in some way is inferior to non-GMO 
products. I am just taking the devil's advocate approach here.
    Mr. Daloz. Absolutely understood. And I think what 
consumers do with that information and why consumers want the 
information is not necessarily the role that Vermont's 
legislature chose to take.
    What Vermont's legislature chose to do, after hearing a lot 
of testimony and really looking at a lot of different sides of 
the issue, was to say we are going to provide this information 
to consumers. It is accurate, it is complete, and we are going 
to let them do what they want.
    Dr. Bucshon. Fair enough.
    I want to get the other three in in my last 25 seconds 
here.
    Mr. Reifsteck. I believe Congress' responsibility is to 
ensure that American consumers have an accurate, fair, and non-
misleading system for labeling foods.
    Mr. Jaffe. I think it is Congress' role, I think it is 
CSPI's role and everybody else to provide the facts to 
consumers out there. I think the current crops that are 
engineered are safe, and I think generally this is a safe 
technology, but you have to look at each application on a case-
by-case basis.
    Mr. Giddings. Congressman, it is important to recognize 
that Vermont Act 120 and other similar legislation is a direct 
consequence of attempts to mislead consumers as to the safety 
of foods that are derived from crops and foods that are by 
technology.
    I have read every iteration of that law multiple times, and 
the legislative record is very clear. The findings of fact 
associated with it put forward a whole host of verifiably false 
claims about the safety of these foods. And while the State of 
Vermont, I am completely confident, does not intend to mislead 
consumers, the folks who pushed them into adopting this 
legislation and who are leading the campaigns have very 
different motives.
    And, you know, let me give an example of a couple of quotes 
from them.
    Dr. Bucshon. My time has expired. Can you submit the rest 
of your response to that for the record?
    Mr. Giddings. It is in my written remarks, and----
    Dr. Bucshon. OK. Great.
    Mr. Giddings [continuing]. To summarize very briefly, the 
intention of the folks pushing these mandates for information 
on labeling is directly to mislead consumers as to their safety 
as a means of growing their market share.
    Dr. Bucshon. I yield back.
    Mr. Pitts. The gentleman's time has expired.
    The chair now recognizes the gentleman, Mr. Butterfield, 5 
minutes for questions.
    Mr. Butterfield. Thank you very much, Mr. Chairman.
    Mr. Chairman, before getting started, I would ask unanimous 
consent to have two letters inserted into the record, the first 
one addressed to Members of the House and dated April 28. It is 
signed by nearly 400 stakeholders, including the National 
Federation of Farm Bureaus, as well as the State farm bureaus 
from Alaska to Florida. It is worth noting that the Vermont 
Farm Bureau is one of the signers. The letter expresses the 
support of the 400 signers for H.R. 1599.
    I offer this letter.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Butterfield. Additionally, the second one, Mr. 
Chairman, addressed to Mr. Pompeo and me and dated April 16, 
2015, is from 29 biotechnology industry stakeholders and state 
biotech associations, including the North Carolina Bioscience 
Organization and the Bio New Jersey Association. The letter 
expresses, again, support for 1599.
    I offer this letter.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Butterfield. Thank you very much, Mr. Chairman.
    Mr. Blasgen, I apologize for being in and out, but we are 
multitasking today, and I think you understand that. But thank 
you so much for being here today, and thank you for lending 
this committee your expertise in supply chain management.
    I have come to understand our Nation's food supply chain is 
a vast and interconnected web that starts with seed development 
and ends on the consumer's plate. The complex process of 
feeding America is staggering. It is easy to appreciate why 
upending manufacturing processes would cause significant 
disruptions to the supply chain, ultimately will result in 
consumers actually paying more for the same food that they buy 
today.
    Number one, considering that you have spent the last 15 
years as a supply chain logistics expert, do you believe a 
Federal labeling standard is in the best interest of both 
American consumers and our Nation's food producers?
    Mr. Blasgen. Yes, I do.
    Mr. Butterfield. That is unambiguous. All right. Thank you.
    I understand that there are concerns that the cost to 
comply with the Vermont law could exceed food company sales 
revenue for products that are actually sold in Vermont.
    If companies decide to no longer sell products in Vermont 
or any other state, as that goes, that has state mandates 
because it is too costly for them to comply, it is the 
consumer, not the company, that loses. That is my logic. Would 
you agree?
    Mr. Blasgen. I do. And as I mentioned in my statement, the 
grocery manufacturers are very high-volume, low-margin, and 
they do everything they can to keep very efficient and 
effective manufacturing operations, as well as distribution 
operations, right up until the time the consumer consumes the 
product. Securing that supply chain is very important to them, 
and they do everything that they can to make it the most 
efficient possible so that we can pass on those savings to 
consumers.
    Mr. Butterfield. What are the practical impacts of 
different state-by-state mandates on consumers? And why is a 
national standard in the best interest of consumers, in your 
own words?
    Mr. Blasgen. Right. It would literally mean manufacturing 
lines all across the country would have to stop and start and 
stop and start over and over again to change labeling, change 
packaging, create separate inventories of the same product 
essentially, ensure that they are segregated so they can end up 
in the right state. That would complicate things not only in 
the manufacturing sector but also in the inventory management 
sector because we would have to ensure those inventories are 
segregated and tracked as best as possible to ensure they are 
ending up in the right states. It is very difficult to do that 
throughout the entire supply chain.
    In particular, I will reiterate the fact that the 
manufacturers have control of only so much of that supply 
chain, and they turn it over to the retailers and wholesalers, 
who redistribute that product to stores. And then it is their 
job to make sure that product ends up where it is intended.
    Mr. Butterfield. OK.
    And now to the other end of the table, Dr. Giddings, and 
thank you, sir, for coming.
    At the December 2014 hearing, one witness said that some 
food companies label their food as ``natural'' even though it 
contains genetically engineered ingredients. He said that some 
consumers thought that was intentionally misleading because 
they believed exactly the opposite, that genetic engineering is 
not natural.
    While ``natural'' is not currently defined, the original 
version of 1599 would have required FDA to do so. The amendment 
in the nature of a substitute before us today, though, does 
not.
    Would you please share your views on the use of the term 
``natural''?
    Mr. Giddings. This is something that rabbis and Jesuits 
could use years discussing.
    This much I can tell you: It is not clear to me what the 
term ``natural'' means when used in foods, because everything 
that we eat has been modified from the form it took before 
humans started to cultivate and care for livestock and so 
forth. So it has all been changed. Even wild fish stocks we 
have selected over generations and changed their genetic 
makeup.
    But this much I can tell you: foods derived from crops 
improved through genetic engineering, so-called GMOs--the term 
``GMO'' has been defined as something modified in a way that 
does not occur in nature. But in the process of genetic 
engineering, we scientists in the lab learned how to do these 
things by observing these phenomena of genetic change happening 
in nature. These phenomena are widespread; they are found 
throughout the living world.
    The techniques that genetic engineers use in the lab to 
make these kinds of specific and directed changes with the 
degree of precision that is unprecedented in the history of 
humanity, these changes are all changes that we learned how to 
do by seeing it happen in nature. We use enzymes that we take 
from nature to make these things happen. If this is not a 
natural process, I have no idea what a natural process is.
    Mr. Butterfield. Thank you, Mr. Giddings.
    My time has expired, but you do believe we need a 
definition for ``natural''? Would that be helpful?
    Mr. Giddings. If you could come up with a definition, it 
would be helpful. But I am not sure it is possible.
    Mr. Butterfield. Thank you.
    I yield back.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentleman from New York, Mr. Collins, 5 minutes 
for questions.
    Mr. Collins. Thank you, Mr. Chairman.
    This is a great hearing. I appreciate the witnesses' 
comments. And, certainly, I am a big supporter of Mr. Pompeo's 
bill.
    As we move into an area that I like to equate to 
hydrofracking, the scare tactics, the disinformation, the 
misinformation, the outright lies surrounding the safety of 
hydrofracking took on a life of their own for several years, to 
the point New York State banned hydrofracking. And, lo and 
behold, the EPA finally came out with an exhaustive study that 
said without any doubt that hydrofracking, when done properly, 
is absolutely safe and does not impose any risks on groundwater 
contamination. But for 2 years, people were on the Internet 
showing tap water coming out of the taps and putting a lighter 
to it and starting it on fire and scaring the bejesus out of 
the public, that, oh, my God, if that is hydrofracking, you are 
going to be drinking contaminated water.
    I compare that very similar to where we are today on this 
GMO debate. The opponents of it, like hydrofracking, have 
gotten out in front and basically said GMO equals bad, GMO 
equals dangerous. And so now people are at a point where, if 
they put anything to do with GMOs on their label, the average 
consumer, from misinformation and disinformation, is going to 
say, I don't want to buy that. Well, that is a tragedy for 
America, for the American consumer, and it just is, 
unfortunately, the facts of the life we live in.
    Also, the other issue that I know is problematic is, if 
every state creates their own labeling standards, if every town 
and every county, if all 62 counties in New York create their 
own labeling standard, the types of costs that are going to be 
passed on to consumers would be mind-boggling.
    We have a Cheerios plant just outside of my district, and 
if every box of Cheerios, you had to create a thousand 
different boxes because every village, every city, every town, 
every county, every state in America decided to willy-nilly 
pass their own laws, you wouldn't be able to afford a box of 
Cheerios.
    And, frankly, as the supply and demand chain goes for a 
very small state with very few consumers, they would just stop 
selling in that state. Vermont can go do what they want, but 
somebody might say, based on the cost of serving a very small 
market, I guess we will just no longer sell our product into 
that market. That is what consumers seriously need to be 
worried about.
    So I am just very happy that the FDA would be--we are 
asking them to do a study on the safety, like we asked the EPA 
to do a study on the safety of hydrofracking and it came back 
safe. And I am confident the same study will show that to be 
the case for GMOs.
    And I do think that Congress does have a role to play if 
there is labeling. We need to be preemptive and cut out the 
states from willy-nilly, putting out a thousand different sets 
of regulations. I am a small-government, local-decision-making 
guy, but this is a place for the Federal Government to step 
forward.
    But an observation and question, perhaps, to Mr. Blasgen: 
Cornell University, just, again, outside my district, did a 
study, and the study was: What would be the cost--now, this is 
certainly an estimate, but they did an actual data-based 
study--to the average consumer in America were these willy-
nilly labeling by state, by town, by county, by village to go 
forward? And it was $500 at the end. They concluded the average 
family would be paying an additional $500 a year just for these 
labels on boxes. And $500 is a significant dent for getting 
nothing more than the cost on the producers.
    And I just wondered, Mr. Blasgen, have you seen similar 
studies? Does that make sense? Let's be honest with the 
consumers: do you want to pay an extra $500 a year?
    Mr. Blasgen. I have heard about that study, and I think it 
would probably even increase depending upon the number of 
states, the number of products that might be magnified by such 
labeling laws. The complications, the extra inventory, the 
extra time associated would be quite substantial when you think 
about all the manufacturers of food products, all the different 
items, and all the different labels that potentially could be 
on all these products.
    Mr. Collins. Yes.
    And do you also agree that there is certainly a risk that 
if a city, town, village, state, especially a small one, 
decided to pass a labeling law, there would be a fair chance 
that the supply chain would just simply stop providing that 
product into that market?
    Mr. Blasgen. It is possible. It all comes down to whether 
you can make a product, have a healthy margin so the 
manufacturers----
    Mr. Collins. You are going to look at your cost, you are 
going to look at your return and say, you know what, sorry, 
just not going to sell it into that market anymore. That is 
what America is all about, with choice and competition.
    Well, thank you all for your comments today. And I look 
forward to a study showing that GMOs, in fact, are safe.
    And, with that, Mr. Chairman, I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    We are voting on the floor. It just started, so we have 14 
minutes left. We will go for a while. Then we will have to 
recess and come back if there are still questions that haven't 
been asked.
    So, at this point, the chair recognizes the gentleman from 
Oregon, Mr. Schrader, 5 minutes for questions.
    Mr. Schrader. Thank you, Mr. Chairman.
    I guess questions for Mr. Jaffe and Mr. Reifsteck: What is 
the purpose of FDA labeling? What is the statutory requirement? 
Why do we label food?
    Mr. Jaffe?
    Mr. Jaffe. So that the consumers have truthful, non-
misleading information about material issues that are 
important.
    Mr. Schrader. Mr. Reifsteck?
    Mr. Reifsteck. That would be my understanding also. I am 
not an expert on the science behind the food labeling, but that 
would be my understanding, yes.
    Mr. Schrader. Well, actually, it goes more specific. It 
talks about nutrition. And the goal is health and safety, 
obviously, of the American consumer.
    I have been listening closely to the discussion. A lot of 
it just seems like--I would say our bill covers a lot of the 
concerns that we are talking about here, which is truth and 
honesty in labeling.
    And I think everyone has responded to the chairman and 
other people's questions that there is currently no evidence 
that the genetically modified or genetically engineered crops 
we have to date cause health and safety problems. Our bill 
provides for, should they do that in the future, they would 
have to be labeled. This takes into account the fact that we 
don't know, maybe at some point in time there could be a 
problem, and FDA could regulate that. I think that is a good 
thing. I think we all would agree with that at the end of the 
day.
    The bill also--for the right-to-know folks, in my state, we 
had a big discussion about genetically modified organisms and 
GE labeling--it also provides for the right to know. It 
provides a mandatory labeling if you are going to claim that 
your product is non-GMO. I think that is important. People need 
to know.
    And then there is a process by which FDA and the Secretary 
can actually establish that. That is good. That allows the 
consumer to know exactly what he or she is getting.
    To the discussion on ``natural,'' there is a section here--
I agree with Mr. Giddings, it would be tough to define 
``natural.'' As an organic farmer, with all due respect to Mr. 
Daloz, who is talking about this partially produced, 70 
percent--it is like being half-pregnant. As an organic farmer 
and as an organic consumer, I want to know, is it organic or is 
it not?
    And right now I think it is important for members of the 
committee and citizens in our country to know we already have, 
a bioengineering label to some degree; it is called 
``organic.'' As an organic farmer and, frankly, working on the 
farm bill this last Congress, we spent a lot of time trying to 
make sure that that meant something, that it was organic or it 
was not, and that the USDA and FDA had tools in place to 
actually make that statement.
    I have conventional farming friends that also have organic 
operations. And, yes, they have to use two separate facilities 
and stuff; there is a cost to it. But they make a market play, 
or it is a personal, philosophical thing that they want to do 
that at the end of the day. And that is good. The consumer 
benefits from that.
    The most important thing that this bill does, in my 
opinion, is it defines what a genetically engineered substance, 
organism is. Because right now there is nothing out there. 
There is the blogs, there is this hysteria, there is this--on 
the other side, the people that say everything has been 
genetically modified over time. To some extent, that is 
probably true.
    For the consumer that has a problem with stuff being done 
in vitro--which, as a scientist, I would argue is probably 
safer than traditional breeding, where you get inadvertent side 
effects that you can't control, where you can control them by 
just genetically splicing organisms at the end of the day. But 
those people that are concerned about that this gives them some 
certainty this is what this means. It gives the producer some 
certainly as to what genetically engineered actually means.
    And I think it has been clearly stated here that, to have a 
patchwork of regulatory framework where it sort of means this 
or it doesn't mean that, when we have food and produce that not 
only goes across county lines but state lines and now 
international lines, I think some sort of national standard is 
crystally clear and needed.
    This allows for those that are concerned about GE from a 
political or philosophical standpoint, not from a food health 
or safety standpoint, to get that stuff labeled and before them 
in time.
    I think this bill is a great piece of legislation. It 
doesn't over-legislate. It gives the consumer the right to know 
what they need to know, but allows American farmers, American 
food manufacturers to still produce the safest, healthiest food 
in the world that, I would point out, has increased yield, 
reduces tillage, reduces use of pesticides--many things that 
some of the very same people who are against any genetically 
engineered organism really also want at the end of the day.
    So I think this is an excellent compromise and would urge 
the committee to adopt it at the end of the day.
    Thank you, Mr. Chairman. I yield back.
    Mr. Pitts. Thanks to the gentleman.
    And I now recognize the gentleman from Virginia, Mr. 
Griffith, for 5 minutes of questions.
    Mr. Griffith. Thank you very much, Mr. Chairman. I will try 
to be quick.
    Mr. Jaffe, you indicated in one of the answers earlier that 
you didn't--and correct me if I got it wrong--that you didn't 
see any concerns today about allergens, that none of the foods 
that are out there now that have been genetically engineered 
have allergen problems, but you were concerned about the 
future.
    Can you get me information on that, if I got that 
information correct from you originally? Was that correct, what 
I thought I heard you say?
    Mr. Jaffe. Yes. That is correct.
    Mr. Griffith. Can you get me some information after the 
hearing in regard to concerns or papers about concerns about 
future allergens? As a father of a 9-year-old who has a lot of 
food allergies, I would be interested in that. Would you do 
that for me?
    Mr. Jaffe. Sure.
    Mr. Griffith. And, Mr. Daloz, industry is concerned about 
potential for private actions against manufacturers. Under your 
law, I believe the law is maybe unclear on that point.
    Does Vermont's law block private rights of action against 
manufacturers and suppliers? I am not going to ask you for an 
answer today because we are short on time. I am going to ask 
you if you would get us something on that.
    And if the answer is no, what do you intend to do to limit 
liability when a product, the person who manufactured it really 
didn't intend for it to ever end up in Vermont but somebody 
puts it on the shelf there anyway?
    And if you could get me an answer to that at a later date, 
I would greatly appreciate it. I am trying to make sure that 
Mr. Pompeo gets an opportunity.
    Thank you, gentlemen.
    And, with that, Mr. Chairman, I yield back.
    Mr. Pitts. I now recognize Mr. Sarbanes for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I will be shorter 
than 5 minutes.
    I want to thank the panel.
    Mr. Jaffe, long time, no see. Thank you for your testimony.
    I confess to you, my head is kind of exploding on this, 
just trying to balance all of these different concerns. So I am 
still absorbing a lot of the information and perspective 
related to it.
    I take it, Mr. Jaffe, that even though there is a system 
now whereby the FDA, in effect, says that they think things are 
OK because they issued this letter that says they don't have 
any further questions, that you don't view that as an 
affirmative enough judgment being rendered by the FDA with 
respect to the safety of the item that is subject to the 
letter.
    Can you just elaborate a little bit more on why you feel 
that a more proactive, affirmative statement or standard or 
judgment or opinion on the part of the FDA would make sense in 
the context of this proposal?
    Mr. Jaffe. Sure. Thank you very much for that question.
    The FDA letter that comes back at the end of these 
consultations says--and I am sort of paraphrasing here but sort 
of quoting--it says, ``The FDA has no further questions at this 
time about your determination that you think the food is safe. 
You are responsible for safe food.'' So the developers, 
Monsanto or DuPont, that is what the ``you'' would be referring 
to in that case.
    So the public looks at that letter and says, FDA is not 
saying it is safe; FDA is saying you have to rely on Monsanto's 
determination that this is safe. And so I think that may not be 
an issue of actual safety, but it is an issue of perception of 
that. So FDA it not giving its opinion at all about that 
safety.
    When you look at--and the Congressman from Oregon mentioned 
his state had a referendum on mandatory labeling. There have 
been four states that have had those referendums. When you ask 
the consumers--and almost 50 percent voted for those--why did 
they vote for those, they say, ``Because we weren't sure these 
foods are safe. We want to avoid them because we are not sure 
they are safe.''
    So the solution to that is not to label at the back end; 
the solution is for FDA to confirm to consumers that those 
foods are safe on an individual, case-by-case basis for each 
individual product. And so I think that is what every other 
country in the world does in this area before they approve 
genetically engineered foods. Their food safety authority 
equivalent to FDA does it.
    And what is ironic about it, in the United States, USDA, 
you can't plant one of these crops without USDA saying they are 
safe, but we can eat the foods from them without FDA saying 
they are safe. That is not a product of a policy decision. It 
is a product of using old laws and fitting new technology into 
that. And I think----
    Mr. Sarbanes. Right. OK. Well, I appreciate that. My sense 
is you would believe that having that new standard would help 
address some of the anxiety that people legitimately feel about 
whether there are safety concerns there or not. And, in so 
doing, you might lessen the demand for the kind of labeling 
that Mr. Giddings and others are reluctant to see imposed.
    So I don't understand why there is a total departure 
between the two of you on this topic, because it seems that one 
would help the other to some degree.
    I am going to switch gears, and I am going to try to wrap 
up.
    I gather that the Vermont labeling bill is one that would 
require the producer, the manufacturer, whatever the right term 
is here for the person putting the label on there, to indicate 
that it is partially produced or wholly produced by GE, but 
that a label saying ``may contain GE'' is not an option? Or is 
it if there is no way to determine the origins?
    Mr. Daloz. I think that is an important point to make. It 
is an option. And producers can choose to qualify the 
``produced with genetic engineering'' with the term ``may be'' 
if they, after reasonable inquiry, can't determine whether 
their product is produced with genetic engineering.
    Mr. Sarbanes. But if they can determine it, they cannot 
choose to say ``may.''
    Mr. Daloz. Precisely. It has to be accurate.
    Mr. Sarbanes. That, to me, would be a solution to the 
entire problem in some ways.
    In any event, thank you all for your testimony.
    I will yield back.
    Mr. Pitts. The chair thanks the gentleman.
    We are voting on the floor. We have 2-plus minutes left.
    The chair recognizes the gentlelady from Indiana, Mrs. 
Brooks.
    Mrs. Brooks. Mr. Chairman, I heard yesterday from Beck's 
Hybrids, a family-owned pioneer in the biotech world in seed 
production, who is in strong support of this bill.
    And I yield the remainder of my time to the gentleman from 
Kansas, Mr. Pompeo.
    Mr. Pompeo. Thank you, Mrs. Brooks. I appreciate that.
    And I thank you all for being here, as well.
    Mr. Daloz, you said that you trust people to make their own 
decisions. In fact, we saw Mr. Welch hold up a container that 
said non-GMO today under the current law. Would that producer 
still be able to produce that container after H.R. 1599 passed?
    Mr. Daloz. That is not my understanding of H.R. 1599.
    Mr. Pompeo. So, he would. You understand it incorrectly. 
Because this is exactly what I wanted to address.
    There is nothing in this legislation that denies any food 
producer any ability to market their product as non-GMO as long 
as that is a truthful statement and accurate. That proves my 
point precisely. Chipotle could still sell you a 5,000-calorie 
burrito that was non-GMO and tell you it was a good idea. As 
long as it was truthful and accurate, they could continue to do 
that. And this is exactly what I wanted to get at.
    So you suggested that somehow H.R. 1599 denies anyone the 
right to know anything. But it doesn't. Can you tell me where 
in the bill you see that it would prevent someone from doing 
that?
    Mr. Daloz. I don't have the draft directly in front of me. 
My understanding is that a portion of title 1 of the amendment 
in the nature of a substitution suggests that it would be 
misbranding if a product were labeled without following some of 
the procedures laid out in title 2. I think it is 291(b) and 
(c).
    And my understanding of those is, at the point in time that 
H.R. 1599 took effect, there would be no state laws that could 
exist. And there would be up to a year, possibly longer, for 
the regulations to come into effect, which would essentially 
mean that, at the point in time H.R. 1599 took effect, it would 
be a rollback of the status quo today and certainly would 
eliminate----
    Mr. Pompeo. There would be hundreds of thousands of state 
laws still in effect. There just would be no ability for a 
state to have mandatory labeling.
    There would still be complete freedom for every company in 
the world that wanted to market their products as being 
something that was truthful, including non-GMO--they could 
continue to do so. There is absolutely no denial of anyone's 
right to know whether that product is there. And someone who 
only wants to eat non-GMO ice cream can do so today, and they 
can do so once we get H.R. 1599 passed.
    And so, if I am right about that, you will come join me on 
the podium when we celebrate its passage, I assume, and I will 
look forward to that.
    You also talked about there being lots of popularity for 
this. Has this ever passed by referendum in any state in the 
United States of America that you know of?
    Mr. Daloz. In Vermont, it was passed through the 
legislature----
    Mr. Pompeo. My questions was a yes-or-no question. Has it 
ever passed by referenda anywhere? When it has been put to the 
people, have they ever approved what you are proposing?
    Mr. Daloz. Not to my knowledge.
    Mr. Pompeo. Right. So every time it has been on the ballot, 
the American people have rejected it. And I think that is 
important for folks to understand, because there is this idea 
somehow there is this tidal wave of demand and everyone is 
screaming for it.
    In fact, Mr. Jaffe, a question to you. First of all, I want 
to say thank you. I have appreciated your counsel through this. 
You have been reasonable and rational and thoughtful, and I 
greatly appreciate that. We differ a little bit on the front 
end. I am happy to try and work with you to get that a little 
bit better. And I appreciate that.
    But you said 7 percent of the people want it. I don't know 
exactly how many it is. But my bill, in your judgment, it will 
allow those 7 percent of the people to continue to eat all non-
GMO food if they chose and to only purchase products that 
contained a label that reflected that. Even after this bill 
came to passage, they could continue to do that, and they could 
pay the premium that was required, and life would be good for 
them.
    Is that correct?
    Mr. Jaffe. Yes. If the bill was passed, I do think it is 
important that for foods that are labeled non-GMO, that there 
is a Federal standard for that. Because right now consumers 
aren't necessarily getting what they are paying for.
    So, again, I would say there is no need for a consumer to 
want to purchase non-GMO food, but there are consumers who want 
to do that. I think you do need a Federal standard for setting 
what that means.
    Mr. Pompeo. I appreciate that distinction.
    I just want to clarify one thing to clean up something a 
little bit. Mr. Daloz, you kind of gave an answer that I want 
to just make sure I have right.
    So when the FDA came to testify, Michael Landa testified, 
he said that the FDA was confident that GE foods in the 
marketplace today are as safe as their conventionally bred 
counterparts. I asked Representative Kate Webb, the assistant 
majority leader in Vermont, that question. She said she agreed 
with it.
    I assume you agree with that statement from the FDA, as 
well?
    Mr. Daloz. I do. I don't have any reason to disagree with 
it.
    Mr. Pompeo. So you agree with it too. Great.
    Thank you, Mr. Chairman. And thank you for your 
consideration and your help with this.
    I yield back the balance of my time.
    Mr. Pitts. The chair thanks the gentleman.
    That concludes the questions of the members who are 
present. We will have questions in writing that we will submit 
to you. We ask that you please respond.
    I remind members they have 10 business days to submit 
questions for the record. And that means they should submit 
their questions by the close of business on Thursday, July 2.
    Very good hearing. Very important hearing.
    Thank you for your testimony and your expertise.
    Without objection, the subcommittee hearing is adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    

                                 [all]
</pre></body></html>
